<html>
<title> - NOMINATIONS OF JOHN J. BARTRUM AND LYNN A. JOHNSON</title>
<body><pre>[Senate Hearing 115-587]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-587
 
                    NOMINATIONS OF JOHN J. BARTRUM 
                          AND LYNN A. JOHNSON

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

       JOHN J. BARTRUM, TO BE ASSISTANT SECRETARY FOR FINANCIAL 
    RESOURCES, DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND LYNN A. 
 JOHNSON, TO BE ASSISTANT SECRETARY FOR FAMILY SUPPORT, DEPARTMENT OF 
                       HEALTH AND HUMAN SERVICES

                               __________

                             MARCH 20, 2018

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               

                                     
                                     

            Printed for the use of the Committee on Finance
            
            
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-115 PDF                WASHINGTON : 2019         
            


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

                     A. Jay Khosla, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3
Bennet, Hon. Michael F., a U.S. Senator from Colorado............     6

                         CONGRESSIONAL WITNESS

Gardner, Hon. Cory, a U.S. Senator from Colorado.................     7

                        ADMINISTRATION NOMINEES

Bartrum, John J., nominated to be Assistant Secretary for 
  Financial Resources, Department of Health and Human Services, 
  Washington, DC.................................................     8
Johnson, Lynn A., nominated to be Assistant Secretary for Family 
  Support, Department of Health and Human Services, Washington, 
  DC.............................................................    10

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Bartrum, John J.:
    Testimony....................................................     8
    Prepared statement...........................................    25
    Biographical information.....................................    26
    Responses to questions from committee members................    31
Bennet, Hon. Michael F.:
    Opening statement............................................     6
Gardner, Hon. Cory:
    Testimony....................................................     7
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    35
Johnson, Lynn A.:
    Testimony....................................................    10
    Prepared statement...........................................    36
    Biographical information.....................................    37
    Responses to questions from committee members................    42
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    48

                             Communication

American Public Human Services Association (APHSA)...............    51

                                 (iii)


                 NOMINATIONS OF JOHN J. BARTRUM, TO BE

                   ASSISTANT SECRETARY FOR FINANCIAL

                  RESOURCES, DEPARTMENT OF HEALTH AND

                  HUMAN SERVICES; AND LYNN A. JOHNSON,

                     TO BE ASSISTANT SECRETARY FOR



                     FAMILY SUPPORT, DEPARTMENT OF

                       HEALTH AND HUMAN SERVICES

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                                       U.S. Senate,
                                      Committee on finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:12 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Thune, Heller, Scott, Cassidy, Wyden, 
Stabenow, Cantwell, Nelson, Carper, Bennet, McCaskill, and 
Whitehouse.
    Also present: Republican staff: Ryan Martin, Senior Human 
Services Advisor; Caitlin Soto, Oversight Counsel; and Nicholas 
Wyatt, Tax and Nominations Professional Staff Member. 
Democratic staff: Joshua Sheinkman, Staff Director; David 
Berick, Chief Investigator; Laura Berntsen, Chief Advisor for 
Human Services; Michael Evans, Chief Counsel; Elizabeth 
Jurinka, Chief Health Advisor; and Ian Nicholson, Investigator.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    I want to welcome you all here to this committee meeting 
this morning. Sorry we are starting just a little bit late.
    Today we will consider the nominations of John Bartrum and 
Lynn Johnson.
    I would like to extend a warm welcome to each of the 
nominees here today. Congratulations on your nominations, and 
thank you for your willingness to serve in this administration. 
These are important positions.
    Mr. Bartrum, President Trump nominated you to be Assistant 
Secretary for Financial Resources at the Department of Health 
and Human Services. Now, this is not the first time that you 
have been called upon to serve your country. In fact, you have 
30 years of military experience as both an active duty officer 
and as a Reserve officer.
    And I personally, and I think all of us here on this 
committee, want to thank you for your service.
    In addition to your substantial military career, you spent 
many years on Capitol Hill as a senior professional staffer to 
the United States House Appropriations Committee. In that 
capacity, you played a key role in funding the Department of 
Health and Human Services as well as many other agencies under 
its purview. Your experience has given you important insights 
into the costs associated with the policies and programs 
carried out by the Department.
    Prior to your career on Capitol Hill, you served as part of 
the National Security Division of the Office of Management and 
Budget in the Executive Office of the President. At OMB, you 
were responsible for the budget of the Departments of Defense 
and Veterans Affairs.
    It is obvious from your background that you have a good 
deal of experience crafting and implementing Federal budgets. I 
am sure these experiences will serve you well in the position 
for which you have been nominated. If confirmed, you will 
oversee HHS's budget and provide guidance to the Secretary on 
all aspects of financial management.
    As I am sure you are well aware, Medicare and Medicaid are 
expanding too quickly. According to the Centers for Medicare 
and Medicaid Services, national spending on mandatory health 
programs is projected to grow at an average of 5.5 percent per 
year between 2017 and 2026 and will reach $5.7 trillion by 
2026. This trajectory is unsustainable.
    Now, I have a long history of supporting entitlement reform 
and believe that we need to continue to find ways to curb 
excessive government spending while increasing access to high-
quality, affordable care.
    Now, I do not think I need to say this, but I will anyway. 
We have our work cut out for us, Mr. Bartrum.
    On the other hand, Mrs. Johnson, President Trump nominated 
you to be Assistant Secretary for Family Support at the 
Department of Health and Human Services. Currently, you serve 
as Executive Director of Jefferson County Human Services, where 
you oversee a number of workforce and social services programs, 
including TANF.
    Prior to your position with Jefferson County Human 
Services, you ran a consulting firm in Colorado that focused on 
mental health, high-risk youth, and child welfare, among other 
things. I am sure these experiences will serve you well in the 
position to which you have been nominated.
    If confirmed, Mrs. Johnson, you will oversee a wide range 
of more than 60 programs with a budget of more than $53 
billion, making it the second-largest agency in the U.S. 
Department of Health and Human Services.
    You will oversee major programs, such as TANF, child 
welfare, child care, child support, and Head Start, partnering 
with States and communities to help families achieve prosperity 
and independence. You will also be charged with implementing 
laws passed by Congress to aid children and families across the 
country.
    Last month, after years of hard work on both sides of the 
aisle, Congress passed and the President signed into law the 
Family First Prevention Services Act. Now, this law has the 
potential to improve the lives of tens of thousands of children 
and their families across this country.
    The opioid epidemic has hit families hard, and the number 
of children entering foster care due to parental substance 
abuse is continuing to climb. Fortunately, this new law will 
help address the epidemic by providing more help to families to 
address substance abuse issues.
    Mrs. Johnson, if confirmed, you will be charged with 
leading the agency in implementing this law. And I know members 
of this committee are eager to work closely with you to make 
sure it is implemented quickly and as intended so that families 
will get the help that they need.
    I look forward to working with you both and hope that we 
can get your nominations reported and confirmed in short order 
so that we can get to work.
    We have a great deal of work ahead of us on these issues, 
and I look forward to working with HHS as we work to achieve 
our shared goals.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]
    The Chairman. Now, before I turn to my colleague, Senator 
Wyden, I have some foundational questions for the nominees.
    First--and you can both answer this--is there anything that 
you are aware of in your background that might present a 
conflict of interest with the duties of the office to which you 
have been nominated?
    Mr. Bartrum. No.
    Mrs. Johnson. No.
    The Chairman. Okay. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Bartrum. No.
    Mrs. Johnson. No.
    The Chairman. Okay. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of the Congress, if you are 
confirmed?
    Mr. Bartrum. Yes.
    Mrs. Johnson. Yes.
    The Chairman. Finally, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Mr. Bartrum. Yes.
    Mrs. Johnson. Yes.
    The Chairman. Okay. Well, I want to thank you.
    So I am now going to turn the time over to our Democrat 
leader on the committee, Senator Wyden, with whom I enjoy 
working.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, thank you very much.
    And I particularly appreciate your mentioning Family First 
this morning. I think it is fair to say this is one of the 
biggest developments in child welfare reform in over 2 decades. 
I think this is an extraordinary accomplishment. It has been a 
pleasure to work with you.
    We have a lot of colleagues on both sides of the aisle who 
care deeply about this. I know Senator Scott does. I know 
Senator Bennet does.
    And what this means is that families are now going to have 
additional options when they are dealing with opioids or an 
alcohol problem. And we will not just be left with the choice 
of leaving a youngster in an unacceptable situation at home or 
shipping them off to a foster care facility. Some foster care 
is good; some is not so good.
    Family First is a revolution in child welfare development.
    And I will just wrap up with this one point, Mr. Chairman. 
If somebody had said in the winter of 2017 that this committee 
would produce a 10-year reauthorization of the Children's 
Health Insurance Program and begin the transformation of 
Medicare so that it would not be an acute care program, but 
instead would be a chronic care program, recognizing that most 
of the Medicare dollars will now be spent on cancer and 
diabetes and heart disease and strokes--Mr. Chairman, if 
somebody had said that this committee could move these three 
major bills in a polarized climate like this, in a bipartisan 
way, I think they would have been seen as hallucinating.
    So, Mr. Chairman, I know you are going to retire. We have 
wished you and Elaine well before. But I want to take note--I 
am not sure how many more hearings we will have left in this 
session--that those three pieces of legislation, I think are 
going to make an enormous difference for the well-being of the 
people of this country.
    And I want to thank you for your leadership, the chance to 
work with you. And I think that is what the Finance Committee 
is really all about. So let us see what else we can do between 
now and the end of the year.
    But I want to take special note of those bills as we move 
to the nomination of these two individuals: John Bartrum, 
nominated to the role of Assistant Secretary for Financial 
Resources; Mrs. Lynn Johnson, Assistant Secretary for Family 
Support. These are important positions, and I will just have 
some short remarks.
    Child welfare would be under Mrs. Johnson's purview at the 
Department. And I do have some significant concerns about the 
Trump administration's blocking key rules intended to help 
foster children.
    This committee has long made it a bipartisan priority to 
help keep foster kids safe and well cared for. In order to 
evaluate whether our foster care programs are succeeding at 
protecting vulnerable kids and giving them a chance to get 
ahead, the Federal Government needs key information from the 
States, because they run the individual programs.
    For example, if you want to do a better job of keeping 
foster care kids out of sex trafficking, you need to know 
information about how widespread the trafficking problem is, 
who is being victimized, and where.
    So over 3 years ago, the Congress passed a bipartisan law 
to fight trafficking. HHS finally got underway revamping its 
out-of-date reporting requirements, including reporting on sex 
trafficking.
    The last time this information was updated, colleagues, was 
1993. The updates are supposed to be up and running now. But in 
the last few days, regrettably, the Trump administration has 
made the bizarre decision to step in and block the 
Administration for Children and Families from moving forward 
with this implementation.
    I have tried in every way possible to warn the Trump 
administration against interfering with this process. I suspect 
there are some televisions being watched right now at the 
Department of Health and Human Services. I am quite certain 
that some of the nice people sitting behind our nominee are 
also from the Department of Health and Human Services. And I 
want all of these individuals to know how serious this is that 
the Trump administration has stepped in to block these key 
rules.
    They have torpedoed them and, in the process, are standing 
in the way of helping some of the most vulnerable children in 
America. But they have their deregulation blinders on, and they 
have decided not to listen to any warnings about how this 
action could hurt kids.
    Now, if confirmed, Mrs. Johnson would be in charge of these 
decisions. So we are going to discuss them this morning.
    But I want everybody on both sides of the aisle to know I 
am not going to let this quietly pass in the night. It is too 
important to vulnerable children. We have put an awful lot of 
bipartisan work into child welfare, as the chairman has 
correctly noted, as the chairman deserves an enormous amount of 
credit on, and we should not derail it because we cannot get 
good information on matters like sex trafficking.
    Now, I also have concerns about the fact Mrs. Johnson has 
supported legislation to allow Colorado to send foster kids to 
juvenile detention facilities. This may be a common practice in 
Colorado, and, apparently, it may be going on elsewhere. It 
does seem to be contrary to Federal law as I read it.
    If the rules need updating, then policymakers ought to make 
that happen. But this is an area in the law that Mrs. Johnson 
will be in charge of interpreting and enforcing, if confirmed. 
So we will be anxious--and we talked about this in the office 
as well--to get into those questions.
    Mr. Bartrum, you have a big job. You are in charge of how 
the Department is spending taxpayer dollars. To say you are a 
numbers guy is an understatement. We are talking about hundreds 
and hundreds of billions of dollars in Medicare and Medicaid 
and children's health. And that is particularly relevant in the 
Trump administration, because somehow there have been 
increasingly slash-and-burn decisions with respect to 
budgeting. And those are taking place no matter how many 
millions of Americans are going to get harmed.
    You have a long career in public service--we recognize 
that--and strong qualifications. But we spent $3.5 trillion on 
American health care in this country last year, and a big chunk 
of it is in those programs that are under your jurisdiction, so 
I will have some important questions for you.
    Mr. Chairman, thank you. And again, I hope that people are 
very much aware that in a polarized political time, we have 
been able to navigate important legislation. And with a few 
more months here before you retire, we are going to get on with 
it, and I look forward to working with you.
    The Chairman. Well, thank you, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. I agree with you, and I appreciate your kind 
remarks here this morning.
    I understand we have two Senators here who would like to 
introduce Mrs. Johnson.
    Senator Bennet?

         OPENING STATEMENT OF HON. MICHAEL F. BENNET, 
                  A U.S. SENATOR FROM COLORADO

    Senator Bennet. Thank you, Mr. Chairman. I am grateful for 
your graciousness, as always, in allowing me and my colleague, 
Senator Gardner, to come here in a bipartisan way for this 
introduction.
    It has been my view since I have been in the Senate that it 
is unfortunate that we spend too little time thinking about 
families living in poverty, and especially children living in 
poverty in the United States. Over 45 million of our fellow 
Americans live in poverty. That includes more than one in seven 
American children. One of six of our children may not know 
where they will receive their next meal.
    We need more people in government, Mr. Chairman, who 
appreciate this, not as a matter of facts or numbers, but as a 
human tragedy--people who have seen it and who have confronted 
it firsthand.
    And that is why it really is my privilege to introduce my 
fellow Coloradan, Lynn Johnson, the administration's nominee to 
serve as Assistant Secretary for Family Support at HHS.
    Mrs. Johnson served as chief of staff to former Lieutenant 
Governor Jane Norton and later as Deputy Director for Policy 
and Human Services for former Governor Bill Owens.
    But currently, she serves as Executive Director of the 
Department of Human Services in Jefferson County, CO, where she 
manages over 500 employees and oversee critical programs like 
Head Start, Medicaid, and foster care for our State's most 
vulnerable citizens.
    In this role, Mrs. Johnson has promoted reforms to make 
human services more integrated, more accessible, and more 
responsive to vulnerable Coloradans. She appreciates that when 
we fail to integrate human services, vulnerable families and 
children fall between the cracks.
    That is why Mrs. Johnson launched the Jefferson County 
Prosperity Project. The project unites schools, businesses, and 
community leaders to break the cycle of poverty with an 
integrated focus on schools, families, housing, health, and 
economic opportunity.
    She knows that we need fresh ideas to fight poverty in 
America. For example, the typical response to delinquent child 
care payments is to punish the absent parent. Mrs. Johnson 
thought maybe we should help that parent get a job instead.
    Mrs. Johnson has also worked to make Jefferson County Human 
Services more responsive to our community. She extended hours 
to improve access to vital human services like food stamps and 
Medicaid. She also created a Children and Youth Leadership 
Commission to give Americans under 21 a voice in the policy 
decisions affecting their lives.
    This is just a sample of her many accomplishments in 
Jefferson County. And it is why I have heard from many 
Republicans, Democrats, and child advocates from Colorado who 
have praised Mrs. Johnson for her deep knowledge of these 
issues and, more important, for her actual record of fighting 
poverty in our State.
    As this committee knows, the Department of Health and Human 
Services faces challenges on many fronts, from an opioid crisis 
that claims the lives of more than 42,000 Americans each year 
to a rapidly aging population. The Department needs creative 
thinking to meet these challenges and reimagine human services 
to be more efficient, integrated, and responsive to our fellow 
Americans.
    I am grateful to Mrs. Johnson for her willingness to serve, 
for the work that she has done for Colorado. And I look forward 
to her testimony.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Gardner is here. We are happy to take your 
testimony at this time.

                STATEMENT OF HON. CORY GARDNER, 
                  A U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Senator Wyden, and my colleague, Michael Bennet. 
And congratulations to both nominees here today.
    Mrs. Johnson, thank you very much for your service. I am 
excited to be here introducing you as well.
    This is my first experience before the august Finance 
Committee, so I echo--and this may be my last chance, I do not 
know--but I----
    The Chairman. Well, you are showing good form here. 
[Laughter.]
    Senator Gardner. Thank you, thank you. But certainly, I 
must express my appreciation to the chairman as well for 
incredible service in the Senate, distinguished service. Thank 
you.
    The Chairman. Thank you.
    Senator Gardner. Lynn Johnson, of course--and my colleague 
talked about some of the great aspects that she will bring to 
this position as we consider her nomination for Assistant 
Secretary for Family Support for the Department of Health and 
Human Services--she just demonstrates what dedication to public 
service looks like, what it means. And her tireless work on 
behalf of children and families has served as an inspiration 
for us in Colorado for many, many years.
    She currently serves as the Executive Director of the 
Jefferson County Department of Human Services and has for the 
past 10 years. As my colleague mentioned, this is a department 
of hundreds of employees, a budget of nearly $90 million, 
overseeing the Temporary Assistance to Needy Families program, 
child support services, Head Start, Community Development Block 
Grants, child and adult protective services, adult and aging 
programs, pretrial and community correction services, a 
workforce center, Medicaid benefits, and other benefit 
programs--a wealth of experience that she brings to this 
position on how Federal Government programs can impact county 
programs as well. And that is incredibly important.
    Over the course of her career, Mrs. Johnson has garnered 
great respect for her pragmatism and understanding of the 
issues. Her expertise has been sought from multiple Governors 
on both sides of the aisle. And she has served on such 
important committees, including the committee to address child 
welfare, welfare reform, the judicial committee for families 
and the courts, and the Child and Youth Leadership Commission, 
as Senator Bennet mentioned.
    In addition--I think this goes to Senator Wyden's 
conversation--Mrs. Johnson currently serves as the co-chair of 
the Human Trafficking Subcommittee in the State of Colorado.
    Her initiative, the Prosperity Project, has helped ensure 
that each person, each individual, has the opportunity to reach 
his or her highest potential through wrap-around services and 
support. Her extensive experience and passion for the families 
that she serves is unmistakable.
    Her achievements in her current position are widely 
recognized, and her leadership would be a tremendous asset to 
the Department of Health and Human Services.
    And so I enthusiastically offer my support and this 
introduction and hope that the committee will join in that 
support as well. But it is important, I think, to have that 
local government experience. We could use a lot more of that 
understanding in Washington. So thank you very much.
    Congratulations on your nomination, and welcome to your 
family.
    Mrs. Johnson. Thank you.
    Senator Gardner. Thank you, Mr. Chairman. A great 
experience here in the committee. Wonderful. Thank you.
    The Chairman. Well, you did a good job. Thank you.
    We will begin with you, Mr. Bartrum, and take your 
testimony at this time.

         STATEMENT OF JOHN J. BARTRUM, NOMINATED TO BE 
  ASSISTANT SECRETARY FOR FINANCIAL RESOURCES, DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Mr. Bartrum. Thank you, sir.
    Chairman Hatch, Ranking Member Wyden, and members of the 
committee, thank you for inviting me to testify today. I would 
also like to thank President Trump for his confidence in 
nominating me for this position.
    It is an honor to stand before you as the nominee to be the 
Assistant Secretary for Financial Resources at the U.S. 
Department of Health and Human Services, or HHS.
    I would first like to take a minute to introduce and thank 
my family: my wife Elizabeth and daughters Olivia and Sophia, 
who are behind me on my right. I also would not be able to 
serve without their support.
    I must say ``hello'' to my mother Kitty in Kentucky and our 
family back home in Indiana, New York, and around the country 
who are likely first-time C-SPAN or Finance Committee website 
viewers.
    I grew up in a small town in Indiana. My father worked in a 
factory and died when I was in grade school, and I faced many 
challenges in my youth, including being left to live on my own 
during my last years of high school. As a child, I never 
dreamed an opportunity like this would be possible.
    Following a family tradition in military service, I 
enlisted in the Air Force. This allowed me to serve my country 
while I earned money for college and changed the direction of 
my life. I suspect my enlisted basic training instructor 
wondered if the 18-year-old kid from Indiana would graduate 
basic training, let alone serve for more than 30 years of 
service, including as a senior military officer.
    My military service opened up so many opportunities our 
great country offers. Despite my early challenges, I went on to 
earn an undergraduate degree in business administration from 
McKendree College, holding degrees in bioenvironmental 
engineering and survival and rescue operations, as well as a 
master's in business administration from Southern Illinois 
University and a juris doctorate in law from George Mason 
University School of Law.
    My path demonstrates how the American dream is alive as our 
country opens doors beyond what a child's young imagination may 
foresee.
    I began my Federal career as an enlisted member of the Air 
Force and later continued working for the Department of the Air 
Force in a variety of positions in and outside of the United 
States as a civilian employee before joining the Air Force 
Reserve.
    I have been mobilized in support of Operations Desert 
Shield and Storm and Iraqi Freedom. I am a combat veteran who 
currently serves as a Colonel in the Medical Service Corps, 
which is a hospital administrator/executive-type role. I am 
assigned to a Brigadier General position as the Mobilization 
Assistant to the Commander of the Air Force Medical Operations 
Agency, or AFMOA.
    My military assignments include serving as Medical 
Commander, Individual Mobilization Augmentee, or an IMA, to the 
Deputy Assistant to the Surgeon General of the Air Force for 
Health Care Operations and Medical Research, and IMA liaison to 
the Air Force Surgeon General for Medical Reserve Forces, to 
list a few.
    As you noted, until February of 2017, I was a civil servant 
for more than 32 years. In my last position, I served for 7 
years as a professional staffer on the House Appropriations 
Committee, working on HHS appropriations issues with a specific 
focus on biomedical research, public health, and health care.
    Prior to this position, I was the Budget Director for the 
National Institutes of Health, or NIH, advising the NIH 
Director on appropriations, budget, and policy issues and was 
also responsible for NIH-wide budget policy, planning, 
analysis, formulation, and presentation.
    I joined the NIH from the Executive Office of the 
President's Office of Management and Budget, or OMB, as a 
senior OMB examiner in the National Security Division, working 
on management, policy, budget, and development issues for the 
Department of Defense health, medical, and research activities. 
In addition, I worked to improve the coordination between DOD 
and the Department of Veterans Affairs.
    My position at OMB followed 3 years working at the 
Department of Veterans Affairs on medical budget, health-care 
policy, and other veterans' issues.
    All these years later, it is still an honor to serve as an 
active Reserve officer and an honor to have served as a civil 
servant for more than 3 decades. With your support, I look 
forward to reentering government with another opportunity to 
serve the American people.
    The Assistant Secretary for Financial Resources at HHS is 
responsible for development of the annual HHS budget, financial 
management, grants policy, and information technology policy. 
This position has an important role in the coordination of 
these activities across HHS's divisions.
    I look forward to serving in a key role that works to make 
the best use of available resources to enhance and protect the 
health and well-being of all Americans.
    Mr. Chairman, I believe my education and experience 
demonstrate a strong understanding of the Federal budget, the 
HHS budget, and the HHS public health, health, and medical 
research programs and uniquely qualify me for this position.
    If I receive the confidence of the Senate to serve as 
Assistant Secretary, my desire is to ensure that my office and 
I will serve as a resource to Congress to best serve our 
Nation. I look forward to serving our Nation as the Assistant 
Secretary for Financial Resources at HHS.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    The Chairman. Well, thank you so much.
    [The prepared statement of Mr. Bartrum appears in the 
appendix.]
    The Chairman. Mrs. Johnson?

         STATEMENT OF LYNN A. JOHNSON, NOMINATED TO BE 
 ASSISTANT SECRETARY FOR FAMILY SUPPORT, DEPARTMENT OF HEALTH 
               AND HUMAN SERVICES, WASHINGTON, DC

    Mrs. Johnson. I want to thank Senators Gardner and Bennet 
for supporting me today. It was an honor to have them both with 
me.
    Thank you, Chairman Hatch, Ranking Member Wyden, and 
distinguished members of the Finance Committee. It is a 
tremendous honor and opportunity to appear before you today as 
the President's nominee to be the Assistant Secretary for 
Family Support.
    First, I would like to introduce you to my family. My 
husband Lance encouraged me to accept the nomination so I can 
serve my country the best way I know how. I know that, should I 
be confirmed, the rest of the family will also be serving 
America. My sons Greg and Kyle on this side, my daughter Brett, 
my mother-in-law Judy from Iowa, and my college roommate Tina 
from Arizona, are also here with me.
    Unfortunately, my parents, Don and Marilyn, were not able 
to get here today. But they and my siblings, my extended 
family, my staff, my Jeffco Prosperity Project families and 
friends are all watching. I am thankful for all of them, and I 
know I could not have made this journey without them.
    My family moved from Ohio to Colorado when I was young. 
Growing up, my parents instilled in me the dedication to serve 
others. My mom is a teacher; my dad served in the Army, worked 
for General Motors, and loved to play baseball. They are an 
example of what is great in America.
    Looking back on my criminal justice career, I learned 
lessons from people who made some horrible decisions and 
suffered the painful consequences of rejection by society. 
Success stories were accompanied by failures in our criminal 
justice, education, mental health, and human services systems.
    Top-heavy bureaucracy, coupled with the inability of 
systems to work in harmony, let offenders slip through the 
cracks, allowed the homeless and hungry to continue to suffer, 
and denied battered children the dignity of help they so 
rightfully deserved. Systems are made to be improved.
    After leaving criminal justice, my fortune led me to work 
with Governor Bill Owens. He championed successful outcomes for 
vulnerable populations and challenged me to do the same. Here I 
learned policy, politics, and how difficult it was to decrease 
red tape, rules, and regulations.
    Children, mothers, fathers are hungry now, so we need to 
act now. No more lengthy talking, no more lengthy planning.
    As the Director of Jefferson County Human Services, I 
learned the workforce systems from the Department of Labor; 
anti-poverty programs from Head Start; child welfare programs, 
adult programs, and all of the eligibility programs from Health 
and Human Services; some of the housing programs from HUD; and 
SNAP programs from the Department of Agriculture.
    We continually worked to integrate our systems to improve 
our outcomes. We set out to change the culture. We created a 
power of partnership with faith-based entities, partnered with 
nonprofits to maximize resources, and, most importantly, 
created the Jeffco Prosperity Partnership, JPP.
    We moved with people from poverty to prosperity. JPP 
wrapped services around Head Start families to ensure children 
graduated high school and parents achieved full self-
sufficiency at the same time.
    The greatest triumph is the dignity and respect each family 
learns and earns moving out of government systems, becoming 
productive citizens, and giving back social capital so others 
can reach the American dream.
    This nomination--and your confirmation--is the next great 
challenge, a challenge to reduce abuse and neglect, poverty, 
unemployment, homelessness, human trafficking, and hunger 
nationwide. I know we can, and I know I am up to the task.
    For hundreds of years, we have deliberated on how to 
address society's ills. If we do not act now, first, fast, 
focused with a definition of success, leaders sitting in these 
same seats years from now will be having these same 
discussions. Together, we can avoid putting Band-Aids on 
problems, and we can eliminate costly root causes.
    The billions of dollars invested by government and 
philanthropy in communities can be reduced, because we can show 
a return on investment that will create a thriving, safe, and 
healthy society and one that all other countries worldwide will 
want to emulate.
    Every day, I will work to earn your confidence. I will 
fight so the American people are better off. Together, we will 
make a difference. I will make it my mission to listen and 
always value dignity and respect for all of the people, 
children, and families we serve.
    If confirmed, I will be responsive to your intent, follow 
the laws, and work closely with you to make good things happen. 
I hope you support me to lead this challenge.
    I thank you for your consideration and look forward to 
answering any questions.
    The Chairman. Well, thank you so much.
    [The prepared statement of Mrs. Johnson appears in the 
appendix.]
    The Chairman. Thank you to both of you, both for being here 
today and for your willingness to serve the American people at 
this very important time at the Department of Health and Human 
Services.
    I know you have both been meeting with my colleagues and 
their staffs in recent months and providing all sorts of 
documents to the committee. That has been a matter we just have 
to go through.
    So instead of asking you another question, I would like you 
both to just talk a little bit about your goals, should you be 
confirmed. Can you each talk a little bit about what you hope 
to accomplish in your time at HHS?
    And we will start with you, Mr. Bartrum, and then Mrs. 
Johnson, and then I will turn to our ranking member.
    Mr. Bartrum. Thank you, sir. I think that is a great 
question, because I think, as a sailor sailing on the sea, you 
know, we have to look at what is our point of reference. And I 
think we want to look at the North Star. We do not want to look 
at a shooting star that fades out quickly and we end up with a 
shipwreck.
    And so looking at our vision, I think, is important. And my 
vision is to support the mission of HHS, which is to enhance 
and protect the health and well-being of all Americans, in line 
with the Secretary's priorities.
    And so in doing so, part of what I hope to help accomplish 
is to improve the coordination, efficiency, and effectiveness 
of programs across the agency. And in that, the Office of ASFR 
and the staff there, they have a unique position where they sit 
across all of the Department and are looking across all the 
different programs.
    And so part of what I plan to do is to meet with the staff 
and to do a self-assessment and to look at, what are the 
opportunities and what are the challenges that face the 
Department in helping us implement these goals so that we can 
look forward towards the future.
    So that is part of where I am headed, sir: supporting the 
mission of the Department.
    The Chairman. Well, thank you.
    Mrs. Johnson?
    Mrs. Johnson. Thank you, Mr. Chairman. I also support the 
mission of the Administration for Children and Families, also 
known as Family Support.
    But what I would like to see, should I be confirmed, is an 
additional sense of urgency to help assist individuals to be 
better off, reduce abuse and neglect, enhance the services that 
would eliminate poverty--not just help people get food, but 
also get food so they can move forward in a successful way.
    So the long-term outcome is a priority for me, and that has 
to be wrapped around with a sense of urgency.
    I also would like to look at the administrative burdens 
that are placed on local communities and on nonprofits, as well 
as the States, to identify whether we can be more efficient, 
more streamlined, and eliminate some duplication by working 
well with others so that we can better serve in the fastest way 
possible.
    As I said in my opening, individuals are hungry now, and we 
need to be able to serve now in a quick way. The guidance that 
ACF provides to the States and the locals can be enhanced, and 
we can become better partners with those who are actually 
serving on the ground.
    The Chairman. Well, thank you. I think you both are 
excellent choices, and you are both above politics. I think you 
would be terrific in these positions.
    So we will turn to Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mrs. Johnson, as you know, I was going to lead off with the 
2-year freeze at the Department on this rule that requires the 
agency to collect information that is crucial to preventing sex 
trafficking of young people in foster care.
    This rule, the AFCARS rule, to modernize foster care data 
has not been updated in more than 2 decades now. And getting 
this is absolutely a prerequisite to keeping vulnerable kids 
from being trafficked. And that is why we have to get these 
upgrades.
    So I am going to start with two ``yes'' or ``no'' 
questions. Did you support the bipartisan legislation 
Preventing Sex Trafficking and Strengthening Families Act?
    Mrs. Johnson. Yes, I did.
    Senator Wyden. Okay. Does the law require that States 
report whether youth in foster care were victims of 
trafficking? That is a ``yes'' or ``no.''
    Mrs. Johnson. Yes.
    Senator Wyden. Okay. Now, over a month ago, Congressman 
Davis and I wrote the Secretary about the need for the 
Department to stop blocking this effort to get this 
information. Without warning, the Department finalized the 
delay.
    Last Thursday, the Department announced it would shelve the 
new reporting requirements and declared it would reopen the 
entire rulemaking, going back to square one, in effect starting 
all over.
    My view is, as I told you in the office, this is 
indefensible. So this is just my takeaway for you and all the 
people watching, as I said, on their televisions at the agency 
and at the Department. You have to do more to convince me that 
you are going to do more for these vulnerable kids than just 
side with the political people who want this delay.
    I made it clear before, and I will say it again: I enjoyed 
our visit. I know that you have done good work in the past in a 
number of areas, but I need to be clear that your nomination is 
not going forward with my support unless there is a commitment 
from the Department to get this done and a timeline to do it.
    You are not at the Department now, so you cannot give it. 
But for all those people watching, I just want it understood 
that, while I have seen you do some good work, I am not going 
to be able to clear your nomination with my support until there 
is a timeline to get this rule out and a commitment to do it.
    Now, let me ask you about another issue which you know a 
lot about, and that is the one that restricts the use of title 
IV-E funds to support the placement of foster kids in 
facilities used primarily for juvenile detention.
    Pretty much any group out there that is advocating for the 
children says you should not place foster kids in detention 
facilities. And in my view, the Federal law could not be 
clearer: foster care funds cannot be used for this purpose. Yet 
it is widespread in your home State of Colorado, and you are on 
record supporting this practice.
    So, if confirmed, you are going to be responsible for 
interpreting and enforcing the law. How do you interpret the 
Federal restriction on the placement of foster kids in 
detention facilities?
    Mrs. Johnson. Thank you, Senator Wyden, and thank you for 
the time you spent with me in your office.
    The process and practice in the State of Colorado is a 
crossover youth-type model. The courts can place a child into a 
detention system through the Department of Youth Corrections, 
or they can place a delinquent child to the Child Welfare 
Program. That is when the staff in the counties do an 
assessment and provide assessments back to the court to 
determine when and where a young child, a youth, would go.
    With that practice, there are 30 licensed residential child 
care facilities, approximately 30, in the State of Colorado 
that can accept title IV-E. They are licensed as an RCCF. And 
the one in particular that you are speaking of, Ridgeview 
Academy, is also a charter high school that does not have walls 
or locks or bars, any of that type of thing.
    The goal, I believe--and it was before my time--was that 
the troubled youth, whether in either system, would be placed 
in a nontraditional setting. The mental health treatment and 
the educational treatment at this RCCF has been helpful for 
some troubled youth, but it is not the answer for everybody. 
And homes with parents or two adults are the best placement, 
and I agree with you.
    Senator Wyden. My time is up. And I just would like to give 
you a written assignment for next week. And that is, Federal 
law, in my view, as I said, is completely clear: you should not 
place foster kids in detention facilities. Foster care funds 
cannot be used for this purpose.
    So I would like, within a week, a written explanation of 
how you are going to interpret and enforce this statute. Can 
you get that to me in a week?
    Mrs. Johnson. Yes, sir, I can.
    Senator Wyden. Very good.
    Thank you, Mr. Chairman.
    The Chairman. Senator Whitehouse?
    Senator Whitehouse. Thank you, Mr. Chairman.
    And welcome, to both of our nominees.
    Mrs. Johnson, thank you very much for your service as a 
parole officer. I was a U.S. attorney and worked with our 
parole officers very closely. It is a terrific responsibility, 
and I thank you for the years you spent in that particular 
service.
    Now, I want to ask you one thing about the opioid epidemic 
that is ravaging Rhode Island and many other States. In 
particular, we are seeing babies who are born opioid-dependent. 
In some cases, the mom is doing everything right, she is in 
recovery, she is getting medication-assisted treatment, and 
that medication puts the baby in the same position, when born, 
of being opioid-dependent.
    And in order to solve that problem, we are finding, 
particularly through the work of Women and Infants Hospital, 
which is a very excellent leading OB/GYN hospital in Rhode 
Island, that you really need to look at the social determinants 
around that family and engage with the mom in a way that brings 
in a lot of other supports. And if you can do that, you can 
bring down the time spent in a hospital, you can improve 
outcomes. But it does take pulling a lot of things together.
    Is this an area that you would be interested in supporting 
through the various programs that you will oversee?
    Mrs. Johnson. Thank you, Senator Whitehouse.
    Absolutely. I think my strength is pulling community 
resources together, whether it is in my own agency or in the 
community to wrap around a person-centered practice, working 
with the family, the parent, and the child at the same time, 
and the safety supports that wrap around them, especially with 
addiction.
    It is not an easy thing to conquer. And so I would commit 
to working on this to enhance practices, but also to look 
throughout the country to find where are the services for these 
individuals. Are there enough substance abuse practices that 
are successful? And then, how do we best take care of the 
children?
    Senator Whitehouse. Perhaps we could even get you to Rhode 
Island to visit Women and Infants Hospital to see their 
program. I will extend you that invitation.
    Mrs. Johnson. That would be an honor. Thank you.
    Senator Whitehouse. Mr. Bartrum, I have some favorite 
graphs that I spend a lot of time thinking about. And this is 
one that shows the CBO's projection of Federal health-care 
expenditures.
    This top line is the red line here, and back here in 2010 
is where this red line estimate was generated. And that was the 
predicted spending on Federal health care through those years.
    We found the spending trend has been different than what 
CBO had predicted going forward.
    In addition to being on the Finance Committee, I am on the 
Budget Committee. And in the Budget Committee, we do our work 
in 10-year increments. So here is a 10-year increment from 2018 
to 2027. And in that period, something happened that caused a 
departure from the original projection that has saved us $3.3 
trillion in Federal health-care spending.
    I did not see benefit cuts in that period. What I have seen 
are things like Rhode Island's physician-led ACO, Coastal 
Medical, taking advantage of the ACO provisions of the 
Affordable Care Act to drive costs per patient down $560, on 
average, per year. And they started below average to begin 
with, so this is not like those McAllen, TX pirates--nobody 
here is from Texas, I hope--who were overcharging like crazy. 
This was a more efficient-than-average practice.
    And what I would like you to pledge to me is that you will 
help me understand why that took place, help me understand what 
the Department believes, what its experts and the people who do 
these kind of projections believe might explain how we reduced 
anticipated Federal health-care costs by $3.3 trillion over 10 
years without cutting benefits.
    Because if we can do that inadvertently, it is something I 
would like to do deliberately. Will you pledge that you will 
work with me to help understand why this took place?
    Mr. Bartrum. Senator, I certainly would pledge to work with 
you. And I would appreciate the opportunity to work with you 
and understand your details more. Because I think that you and 
I would both agree that the cost of health care is not 
affordable and that we need to make sure that we have 
affordable care and we have access to care and that people have 
the ability to get the types of care when and where they need 
it.
    And I would suggest that we probably also agree that there 
probably need to be some changes to how the system operates and 
the way the modern operation of the world goes.
    I mean, think about years ago how----
    Senator Whitehouse. Fee-for-service----
    Mr. Bartrum. Yes, just think about how technology has 
changed how you make your travel reservations. You used to use 
a travel agent; now you do it all online from your phone. And I 
do not think that the health-care industry has leveraged the 
technologies in the way that we could.
    So I would be happy to work with you.
    Senator Whitehouse. Great. I look forward to working with 
you.
    I thank the chairman.
    The Chairman. Well, thank you, Senator.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    And good morning to the panel. Thank you both for your 
willingness to serve. These are interesting times, important 
times, and certainly we need your expertise.
    Over 430,000 children were in the Nation's foster care 
system in 2016. That represents an increase of about 40,000 
kids since 2012.
    My understanding is that about 34 percent of the increase 
is due to substance abuse. So we can look specifically to the 
opioid crisis and its impact on destabilizing and then 
separating families. The power of this addiction seems to have 
no end, and so the importance of having child placement 
services cannot be overemphasized.
    Our Nation's child-placing agencies, whether they are 
private, faith-based, or otherwise, serve a critical need in 
providing such youth with the resources and care they need to 
have access to opportunity down the road.
    Mrs. Johnson, I am sure that you are aware of the fact that 
in December 2016, the Obama administration moved to finalize a 
rule which would strip title IV-E funding from faith-based 
child-placing agencies that consider religious beliefs when 
placing children.
    This year, Miracle Hill Ministries, an outstanding 
organization that serves as South Carolina's largest provider 
of foster families for children without special needs, was 
notified that they will lose their funding unless they choose 
to ignore their faith when considering foster families.
    This is particularly disturbing when just last year South 
Carolina's Department of Social Services reported that it 
needed hundreds more foster families to meet growing demands.
    Mrs. Johnson, would you agree that our Nation's child-
placing agencies should have the resources necessary to 
continue providing critical services to our Nation's most 
vulnerable youth, be they private, faith-based, or otherwise?
    Mrs. Johnson. Thank you, Senator Scott. I do agree that we 
need to have the best placements and the best adult role models 
for our children throughout the entire country.
    I do believe that the Family First Act will also help 
decrease some of that need, but that means we need to increase 
the ability and the resources for two-parent families that will 
be available.
    From my experience in Jefferson County, what we have done 
is to create the Power of Partnership, which is over 150 faith-
based entities. We have brought in the nonprofit entities, 
businesses, because it takes everybody to find placements for 
these youth and children. And you are absolutely right, there 
are not enough. And that, I believe, drives some of the care 
increases.
    So if we can work more with excellent placements that have 
good resources, really wrap around these kids so we can have 
success--I know in my community our groups have come together 
to completely eliminate any waiting lists for youth and 
children who are waiting for parents. And I hope we could do 
this through all placements in the Nation.
    Senator Scott. Thank you. I hope you would agree to work 
with me to find workable solutions for folks like Miracle Hill 
Ministries.
    I noticed in your comments that you have had some success, 
significant success, in Jefferson County in working with faith-
based organizations. And I believe that the Obama 
administration's stripping title IV-E funds from such 
organizations like Miracle Hill has unintended consequences. 
And I would hope that you would be willing to work with me to 
find ways to overcome those obstacles for these kids who seem 
to be growing in our care as opposed to decreasing in our care.
    Mrs. Johnson. Yes, sir, I would look forward to it.
    Senator Scott. Thank you.
    The Chairman. Thank you, Senator.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    You know, continuing on this IV-E issue, obviously the 
State of Washington has utilized the IV-E waiver for an 
initiative we have, called Differential Response, which is 
intervention designed to prevent families and children from 
entering the foster care system where it can be avoided.
    The program allows investment to keep families together--
counseling, support services--so that foster care is not the 
first response.
    So, obviously, we worked with Chairman Hatch on this in the 
Family First Prevention Services Act, which was included in the 
budget 2 years ago.
    So, if confirmed, will you commit to continuing to help the 
implementation of the IV-E waivers?
    Mrs. Johnson. Thank you, Senator Cantwell.
    Yes, my county is also a Differential Response county. And 
the primary prevention efforts that are done to help families 
stay strong and healthy are the most important efforts that we 
can make so a child does not enter any system. And so I am very 
supportive of the IV-E efforts to wrap around a family to keep 
them strong.
    Senator Cantwell. So do you support helping other States to 
utilize this fund for prevention programs and services?
    Mrs. Johnson. I would follow the law in accordance with the 
Family First Act to use these funds.
    Senator Cantwell. Okay. Yes, okay.
    We are going to keep innovating; that is the key thing in 
the State of Washington. We are going to keep innovating, so 
thank you for your help on that.
    The Speaker has talked about welfare reform, and that is 
his next focus. What would you do as far as reforming these 
programs?
    Mrs. Johnson. Thank you, Senator.
    The welfare reform efforts have been successful, but they 
are over 20 years old. Economics have changed, and the 
individuals whom we serve are looking to stand on their own two 
feet through employment and what I see today as multiple 
employments.
    More individuals seem to be walking into our offices not 
unemployed, but under-employed. And so the incomes they are 
making are still not enough to move them out of government 
systems.
    So what I would like to see with welfare reform is more 
integration with the systems that are in agencies other than 
HHS and ACF, in addition to working more with the communities.
    I would also like to look at the relief of administrative 
burdens on the local and State agencies that we spend a lot of 
time on, rather than looking at people in the eyes and helping 
them to move forward in a successful way.
    I would like to look at outcomes that are driven around the 
issues of poverty more than just a work participation rate. 
Employment is critical. Training is critical. Education is 
critical.
    Senator Cantwell. What about housing?
    Mrs. Johnson. Housing is probably one of the biggest issues 
I am dealing with in my community today. Housing, first--it is 
hard to get a job when you are living on the streets, so we 
should be looking at the housing issues and looking at the 
health issues.
    The social determinants of the health and well-being of a 
community also impact an individual. So I would like to look at 
the whole picture and measure those outcomes, not whether we 
are being compliant, but whether we are actually moving to 
success and people are standing on their own two feet, and 
maybe even 2 years after they are out of our system.
    Senator Cantwell. Well maybe, if you are successful, you 
could have a moment with Speaker Ryan, because I do not think 
he gets the housing crisis that we are in. And just as your 
State has been successful, the chairman's State has been 
successful with housing veterans. My State has had great 
success, despite the complexity of everything from workforce 
issues to returning veterans to all of it. It is so clear that 
housing stabilizes and increases the income potential of these 
individuals and gets us out of our cost scenarios as well when 
they have a safe place to be.
    So how we get this across to our House colleagues, I just 
do not know. You have said it well: it is an investment that 
needs to be done in conjunction with these programs. You need 
to look across these other sectors. But I could not agree with 
you more: housing is a very big issue right now. But 
unfortunately, our House colleagues just do not seem to quite 
understand how critical that issue is.
    So thank you very much.
    The Chairman. Senator Cassidy?
    Senator Cassidy. Thank you both. Again, I will echo what 
Senator Scott said: thank you both for what you are doing.
    Mr. Bartrum, nice to see you again.
    I do not really know if I have a question for you except 
kind of a plea. My office every now and then starts digging 
into some of the money that is spent by different Federal 
agencies, and you are always a little bit shocked--NIH funding 
studies of folks in China to get their attitudes regarding 
sexuality and that sort of thing, nothing to do with the U.S. 
Nation. And we are spending money there.
    And you have no culpability for this. And I think they have 
now finished that sort of activity. But unless somebody in 
Congress had dug into it, we would probably still have that 
activity.
    And so, oftentimes, it seems like Federal agencies and HHS 
are a black box. And I am not trying to bust them, I am just 
trying to bring value for the U.S. taxpayer.
    You do not have to comment on that. But just as we look 
forward to working with you, hopefully in collaboration we can 
seek the best bang for the taxpayer buck, if that makes sense.
    Mr. Bartrum. Senator, I would be happy to work with you. 
And furthermore, I am happy to talk to you about some of the 
ideas we talked about when I met with you in your office. And 
so I look forward, if I am confirmed, to meeting with you and 
looking into these issues.
    Senator Cassidy. That would be great. It is too soon for me 
to speak about it, but I am digging into some NIH assets which 
seem to be underutilized and yet of significant expense. So if 
it is underutilized, do we still need it? Or can you pare back 
the expense? That sort of thing. So just to kind of tip a hand 
about future conversations.
    Ma'am, I am intrigued by some of the work you have done. 
One thing my staff showed to me is this kind of 
multigenerational approach to poverty, which just makes total 
sense to me. If you do not address more than one generation at 
once, you may not be successful.
    Can you just comment on you all's efforts there and give us 
some insights into that?
    Mrs. Johnson. Yes, Senator. Thank you.
    The effort to work with families through my United States 
probation and parole experience and then working in this 
agency--I have seen that we have placed individuals into 
programs, they have gotten healthy, and then we have placed 
them back into dysfunctional homes.
    And the other issue that I saw so much--it is from 
listening to the families--is that as they were placed back 
into the homes, and we did not create a safety net to help them 
be successful for the long term.
    So the generational approach, while you are working with a 
child, a mother, a father, a grandmother--in my program, I have 
a 73-year-old great-grandfather raising his kids--matters. And 
while all are getting healthy together, we then bring in their 
neighbors--and many of you know this as 2Gen or Whole Family--
but as we work on the whole picture at the same time, it saves 
money and it also ensures a bigger success when government gets 
out of the picture.
    Senator Cassidy. Well, I just recall former Senator Franken 
once spoke of going to a drug rehab for adolescents on an 
Indian reservation, and the kids were all bummed out. And he 
discovered that that is because they knew they were returning 
to a dysfunctional home life, which would be thwarting their 
attempt to remain out of drug abuse.
    Now, it seems pretty daunting, though. You are speaking 
about not just a child and a parent, but you are speaking about 
a whole family and then a whole community. And that would enter 
into crime, education, built infrastructure, schooling, et 
cetera.
    Thoughts?
    Mrs. Johnson. Yes, sir. Once we break down the turf and the 
silos around who does what professionally, everybody has the 
same end goal of success for the human beings that we serve. So 
as we are moving on a path to success with the families, not 
for them, they end up helping each other.
    Senator Cassidy. So let me ask you--I smile when you say 
break down the silos. It hardly seems anything is more siloed 
than the Federal Government.
    On the other hand, you would actually be attempting, from 
your Federal role, to break down silos in local and State 
government. Correct? And thoughts on how to do that?
    Mrs. Johnson. My experience has been strictly relationship 
building. And then as we change practice, the hardest thing 
will be that all of the funding is siloed. The relationships 
and the crossover between agencies are much easier than 
identifying how to legally----
    Senator Cassidy. I have a few seconds left. We once looked 
at whether or not Medicaid could work with HUD--Housing and 
Urban Development; I guess that is two different agencies--to 
address the problem of homelessness feeding into the problem of 
mental health, the lack of structure.
    And apparently there are grant programs out there that 
would do that. I am just not sure how successful--I just do not 
know, they may have been successfully implemented. But clearly, 
they would want to go to scale.
    I am out of time.
    But anyway, I applaud you both. I thank you. I look forward 
to working with you and thank you for the good work you have 
already done.
    I yield back.
    The Chairman. Thank you, Senator.
    Senator Carper?
    Senator Carper. Thanks, Mr. Chairman.
    And welcome, one and all.
    I want to talk a little bit about opioid addiction and 
overdose, which continue at epidemic levels, not just in my 
State of Delaware, but throughout the country.
    According to CDC's recent report, I am told that emergency 
room visits for opioid overdoses increased by 30 percent over 
the last 2 years, 2016 and 2017. And the same report indicated 
that in my State of Delaware, emergency room visits increased 
by roughly 100 percent, three times the national average.
    And it is alarming, actually extremely alarming, and more, 
it is a little bit frustrating. I am told that more than 75 
percent of the $500 million that we in Congress allocated for 
combating this epidemic in 2016 remained unused by States.
    Think about that. This is money that we allocated in 2016, 
and so far about 25 percent of the $500 million has been used 
by States, but three-quarters of it has not.
    Given your combined experience in appropriations--this is 
for Mr. Bartrum--but given your combined experience in 
appropriations, budgeting, and State government, how do we help 
the States access Federal dollars to deal with the opioid and 
other drug addiction challenges a lot more quickly, please?
    Mr. Bartrum. So first, Senator, I am very supportive of 
your position on opioids and trying to get behind this opioid 
crisis.
    And part of the work that I did on the Appropriations 
Committee was working with--and I am sure you are familiar with 
Chairman Hal Rogers and his opioid programs--and being able to 
help him with some of the CDC programs.
    On the specific issue of what is going on here with these 
particular grant problems, if I am confirmed, I would like to 
work with you to understand that data more so that I can dig 
into these grant programs and find out a little bit more detail 
so that we can look and see what the solutions are.
    Because I think we all have the same goal on this, and I do 
not think there is any divergence on where we want to be, which 
is we do not want to have this crisis.
    Senator Carper. All right, thank you.
    Do you have anybody here in your family today, Mr. Bartrum?
    Mr. Bartrum. I do. I have my wife Elizabeth and my 
daughters Sophia and Olivia.
    Senator Carper. Olivia, Sophia, would you raise your hands? 
You are really good to be here and cut school so you could back 
up your dad. [Laughter.]
    And your wife, what is your wife's name?
    Mrs. Bartrum. Elizabeth.
    Senator Carper. Elizabeth, thank you for your willingness 
to share your spouse with our country.
    And, Mrs. Johnson, do you have any family members here?
    Mrs. Johnson. Yes, sir, I do. My daughter is here, my two 
sons, my husband, my mother-in-law.
    Senator Carper. Which one is your mother-in-law?
    Mrs. Johnson. Judy Johnson; she is from Iowa.
    Senator Carper. Judy Johnson. There is a baseball field 
named after you in Wilmington, DE where the Kansas City Royals' 
farm team, the Wilmington Blue Rocks, plays baseball. And it is 
called Judy Johnson field, and Judy Johnson was a great 
baseball player from Delaware in the Negro League.
    So it is very nice to see you and your family. Welcome, one 
and all.
    Mrs. Johnson. Thank you.
    Senator Carper. I must say, I spent 8 years as Governor of 
Delaware. We spent 8 years focused on root causes and 
stabilizing and strengthening families. That is what we did for 
8 years. I am very proud; it is some of the best work we did.
    Our new Governor, who was actually my Cabinet Secretary 
back in those days--Secretary of Finance--our new Governor has 
recreated the Family Services Cabinet Council to focus for 
however long he is Governor on strengthening the basic building 
block of our society, and that is our families.
    I have a question on root causes and contraception access 
for you, if I could. And I am very much encouraged by your 
interest in addressing root causes of poverty and finding ways 
to build stronger families. When we spend so much time 
addressing symptoms or problems, we do not go to the root 
causes. And my sense is that you are interested in going after 
root causes.
    But based on your extensive experience, what do you think 
are some of the root causes of poverty, and what should we be 
doing to help build more resilient families and communities?
    That is a big question, but let me follow up and just 
mention, in our State of Delaware and your home State of 
Colorado, Iowa and other States, both red and blue States, 
State leaders have found that improving education and access to 
contraception, especially long-acting, reversible 
contraception, known as LARC, has helped mothers and families 
better plan their pregnancies, leading to better health 
outcomes for mothers and their children and saving State and 
Federal dollars.
    And my question is, do you believe it is important that we 
do everything we can to improve and expand access to 
contraception for women and their families?
    Mrs. Johnson. Thank you, Senator. I believe that we should 
have access to all quality medical care for our children, our 
youth, and our women throughout the entire Nation. And what 
they need should be very person-centered to prevent poverty.
    Senator Carper. Marian Wright Edelman once said--she is a 
giant in the area of families and supporting families and all--
she used to say that if a 16-year-old girl becomes pregnant, 
drops out of school, does not marry the father of her child, 
there is an 80-percent likelihood that they will live in 
poverty--8-0--80 percent.
    She went on to add, if that same young woman does not 
become pregnant at 16, graduates from high school, waits until 
21 to have a child and actually marries the father of her 
child, the likelihood of that family living in poverty is 8 
percent. Eighty percent on the one hand, 8 percent on the 
other, which suggests to me that we should be trying to make 
sure that they do not have that first child at 16 and actually 
wait well into their early or later years to bring a child into 
the world.
    In my State and I think across the country, half of the 
pregnancies are unplanned--half the pregnancies are unplanned. 
Actually, we have made great progress in reducing teenage 
pregnancy as you know, but we still have half of our 
pregnancies unplanned, and we could do a better job than that.
    And one of the most encouraging elements in that battle 
could be these--we call them LARCs, but they are part of the 
solution; I am convinced they are part of the solution.
    And we have a program in Delaware that is called Upstream. 
I do not know if you have ever heard of Upstream. We brought it 
in from California, and it is, I think, going to be a game 
changer. Young girls, or not-so-young girls, do not take their 
oral contraceptives. They may not have the money to get them, 
and the idea that they can have a long-acting contraceptive 
that can last years and years and years--you do not have to 
remember anything, you do not have to pay for anything else--I 
think that is the place to go.
    What do you think?
    Mrs. Johnson. As I said before, I think that that is one of 
the reasons TANF has reduced out-of-wedlock and unintended 
pregnancies, both as one of the four purposes of TANF.
    But I also agree. We work very closely with the youth in 
our Jeffco Prosperity Project. And we have discussions about 
healthy choices; we have discussions about education.
    I do believe, as you said earlier, education is the number 
one, most important effort to be made to end poverty--quality 
education--plus opportunity and this safety network that wraps 
around individuals. So all of those discussions, everything you 
just said, needs to be wrapped around these individuals as they 
need it, one person at a time.
    Senator Carper. Yes.
    Mr. Chairman, you have been very generous with the time.
    I just want to conclude with four words, and those four 
words are: long-acting reversible contraception.
    Thank you.
    The Chairman. Thank you, Senator.
    You have really acquitted yourself well, both of you. And 
we are grateful that you have appeared here. We are grateful 
you are willing to serve our people in this country. And I 
think both of you will be excellent people to serve in our 
Federal Government. So we are grateful to you.
    And with that, we are going to recess until further notice, 
and we will move ahead.
    And I want to thank everyone for their attendance and 
participation today. I recognize that each of the nominees is 
anxious to get to work, and I hope that we can work in a 
bipartisan way to get these highly qualified nominees reported 
to the floor in short order.
    Now, there is a lot of work left for us to accomplish 
before the end of this year, and I would like to once again 
encourage my colleagues on both sides of the aisle to reach out 
to me with any ideas or suggestions so that we can continue the 
fine bipartisan work of this committee.
    With regard to questions for the record, I ask that you 
submit them by close of business this Friday, March 23rd.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:22 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


   Prepared Statement of John J. Bartrum, Nominated to be Assistant 
   Secretary for Financial Resources, Department of Health and Human 
                                Services
    Chairman Hatch, Ranking Member Wyden, and members of the committee, 
thank you for inviting me to testify today. I would also like to thank 
President Trump for his confidence in nominating me for this position. 
It is an honor to stand before you as the nominee to be the Assistant 
Secretary for Financial Resources at the U.S. Department of Health and 
Human Services (HHS).

    I would first like to take a minute to introduce and thank my 
family: my wife Elizabeth and daughters Olivia and Sophia. I would not 
be able to serve without their support. I must say ``hello'' to my 
mother Kitty in Kentucky and our family back home in Indiana and in New 
York, who are likely first-time C-SPAN viewers.

    I grew up in a small town in Indiana. My father worked in a factory 
and died while I was in grade school, and I faced many challenges in my 
youth, including being left to live on my own during my last years of 
high school. As a child, I never dreamed an opportunity like this would 
be possible for me.

    Following a family tradition in military service, I enlisted in the 
Air Force. This allowed me to serve my country while I earned money for 
college and changed the direction of my life. I suspect my enlisted 
basic training drill sergeant wondered if the 18 year-old kid from 
Indiana would graduate basic enlisted training, let alone serve for 
more than 30 years, including as a senior military officer. My military 
service opened up so many of the opportunities our great country 
offers.

    Despite my early life challenges, I went on to earn an 
undergraduate degree in business administration from McKendree College, 
holding degrees in bioenvironmental engineering and survival and rescue 
operations as well as a master in business administration from Southern 
Illinois University and a juris doctorate in law from George Mason 
University School of Law.

    My path demonstrates how the American dream is still alive as our 
country opens doors beyond what a young child's imagination may 
foresee.

    I began my Federal career as an enlisted member of the Air Force 
(USAF), and later continued working for the Department of the Air Force 
in a variety of positions in and outside of the United States as a 
civilian employee and joining the USAF Reserve Forces. I have been 
mobilized in support of Operations Desert Shield and Storm and Iraqi 
Freedom.

    I am a combat veteran who currently serves as a Colonel in the 
Medical Service Corps (Hospital Administrator/Executive) assigned to a 
Brigadier General position as the Mobilization Assistant to the 
Commander of the Air Force Medical Operations Agency (AFMOA). My 
military assignments included serving as Medical Commander, Individual 
Mobilization Augmentee (IMA) to the Deputy Assistant to the USAF 
Surgeon General (SG) for Health Care Operations and Medical Research, 
and IMA Liaison to USAF/SG for Medical Reserve Forces to list a few.

    Until February of 2017, I was a civil servant for more than 32 
years. In my last position, I served 7 years as a professional staffer 
on the House of Representatives Appropriations Committee, working on 
HHS appropriations issues with a specific focus on biomedical research, 
public health, and health care. Prior to this position, I was the 
Budget Director for the National Institutes of Health (NIH), advising 
the NIH Director on appropriations and budget policy issues and was 
also responsible for the NIH-wide budget policy, planning, analysis, 
formulation, and presentation.

    I joined NIH from the Executive Office of the President, Office of 
Management and Budget (OMB) as a senior OMB examiner in the National 
Security Division, working on management, policy, and budget 
development issues for the Department of Defense (DoD) health, medical, 
and research activities. In addition, I worked to improve the 
coordination between DoD and the Department of Veterans Affairs (VA). 
My position at OMB followed 3 years working at the VA on medical 
budget, health care policy, and other veterans' issues.

    All these years later, it is still an honor to serve as an active 
Air Force reserve officer and to have served our government as a civil 
servant for more than 3 decades. With your support, I look forward to 
re-entering government with another opportunity to serve the American 
people.

    The Assistant Secretary for Financial Resources at the Department 
of Health and Human Services is responsible for development of the HHS 
annual budget, for financial management, and for grants policy and 
information technology policy. The position has an important role with 
the coordination of these activities across HHS's divisions. I look 
forward to serving in a key role that works to make the best use of 
available resources to enhance and protect the health and well-being of 
all Americans.

    Mr. Chairman, I believe my education and experience demonstrate a 
strong understanding of the Federal budget process, the HHS budget, and 
the HHS public health, health, and medical research programs and 
uniquely qualifies me for this position.

    If I receive the confidence of the Senate to serve as Assistant 
Secretary, my desire is to ensure my office and I work to serve as a 
resource to Congress to best serve our Nation. I look forward to 
serving our Nation as the Assistant Secretary for Financial Resources 
at HHS.

    Thank you again for the opportunity to appear before you today. I 
look forward to answering your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): John Joseph Bartrum.

 2.  Position to which nominated: Assistant Secretary for Financial 
Resources (ASFR) for Department of Health and Human Services.

 3.  Date of nomination: July 19, 2017.

 4.  Address: (list current residence, office, and mailing addresses):

 5.  Date and place of birth: February 22, 1966; Grand Rapids, MI.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        August 2000-May 2004: juris doctorate in law from George Mason 
        University School of Law.

        August 1992-May 1994: master in business administration, 
        Southern Illinois University.

        May 1985-May 1990: bachelor in business administration, 
        McKendree College.

        1988: associate degree in survival/rescue operations, Community 
        College of the Air Force; 1991: associate degree in 
        bioenvironmental engineering, Community College of the Air 
        Force.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Squire Patton Boggs (U.S.), Washington, DC, partner, February 
        2017 to present.

        U.S. House of Representatives, Appropriations Committee, 
        Washington, DC, December 2009 to February 2017--Senior 
        Professional Staff.

        National Institutes of Health (NIH), Associate Director, 
        Director, Office of Budget, Bethesda, MD, October 2006 to 
        December 2009--Senior Executive Service (SES).

        Executive Office of the President, National Security Division, 
        Office of Management and Budget, Washington, DC, June 2001 to 
        October 2006--Senior Examiner.

        Assistant Secretary for Management, Office of Budget, Medical 
        Service Department of Veterans Affairs (VA), Washington DC, 
        December 1998 to June 2001--Senior Budget/Program Analyst.

        United States Air Force, Europe (USAFE) International 
        Engagement Office HQ USAFE, Ramstein Air Base, Germany (Federal 
        employee), August 1996 to June 1998--International Program 
        Manager/Analyst, Deputy Chief.

        United States Air Force, Scott Air Force Base, IL (Federal 
        employee), January 1994 to August 1996--Deputy Chief, Quality/
        Process Improvement Division (program manager); October 1988 to 
        January 1994--Aircraft Maintenance Specialist.

        Widick Custom Woodworking, Evansville, IN, April 1988 to 
        September 1988.

        United States Air Force (enlisted--active duty military), 375th 
        Aircraft Maintenance Squadron, Scott Air Force Base, IL, June 
        1984 to March 1988--Aircraft Maintenance Specialist.

        United States Air Force, United States Air Force Reserve 
        Command (officer), various positions since April 1990 to 
        present; current positions: Mobilization Assistant to the 
        Commander of the Air Force, Medical Operations Agency, San 
        Antonio, TX.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        No other positions other than those listed above, to include 
        Air Force Reserve service that is generally part-time since 
        1990.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        I am a part owner of three small commercial rental buildings in 
        Evansville, IN. The land is part of a sub-chapter S 
        Corporation. I hold the position as president of J&G Real 
        Estate Investments, Inc. Until July 2017, it was owned jointly 
        between my aunt and me with each having equal shares. It is a 
        non-paid position. The distributions are made in the form of 
        dividends. In July 2017, due to health conditions of my Aunt, 
        my wife and I purchased her shares. Therefore, my wife and I 
        are the owners of all shares of stock between the two of us.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        National Rifle Association (current).

        Republican Party (current).

        Member: First Baptist Church of Alexandria, VA (current).

        Deacon: First Baptist Church of Alexandria, VA (current).

        Finance committee member: First Baptist Church of Alexandria, 
        VA as of January 2016.

        Finance committee chairman: First Baptist Church of Alexandria, 
        VA as of January 2017.

        Society of Reserve Medical Service Corps Officers member 
        (current).

        Virginia Bar Association (current).

        U.S. Air Force Reserve Officer (current).

        President of J&G Real Estate Investment, Inc., subchapter S 
        corporation for commercial rental property. I owned it with my 
        aunt until July 2017 but now own it with my wife.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       I have not held any offices in a political party. I have been a 
member of the Republican Party.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       Squire Patton Boggs Political Action Committee (Squire Patton 
Boggs PAC) Committee ID: C00401083: $1,315.75 up through May 2017.

       Wendy Rogers: Principal Campaign Committee: wendyrogers.org; ID: 
C00510958: $250.00 in June 2012.

       Donald J. Trump for President, Inc.; Committee ID: C00580100: 
$48.00 on July 11, 2016.

       Joseph Murray for VA State Senate; Murray for Senate: $1,250 
total contributions in 2015 ($1,000 on May 8, 2015 and $250 on October 
10, 2015).

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):


           Military Decorations and Medals as of July 15, 2017
 
                   Awards and Decorations                      Devices
 
1. Meritorious Service Medal                                           5
2. Air Force Commendation Medal                                        2
3. Air Force Achievement Medal                                         1
4. AF Outstanding Unit Award with Valor Device                         3
5. AF Organizational Excellence Award                                  0
6. AF Good Conduct Medal                                               1
7. Air Reserve Forces Meritorious Service Medal                        2
8. National Defense Service Medal                                      1
9. Global War on Terrorism Expeditionary Medal                         0
10. Global War on Terrorism Service Medal                              0
11. Humanitarian Service Medal                                         0
12. Air Force Expeditionary Service Ribbon with Gold Border            0
13. AF Longevity Service                                               6
14. Armed Forces Reserve Medal with 1 ``M'' Device                     2
15. USAF NCO PME Graduate Ribbon                                       0
16. AF Training Ribbon                                                 0
 


        Other Military Honors

       U.S. Air Force Reserve Selectee for the U.S. Air Force Lance P. 
Sijan Leadership Award, 1999.

       Scott Air Force Base Air Force Association one of the 
Outstanding Airman of the Year, 1987.

        Civil Service Awards

       Numerous Civilian Performance Awards since 1991.

       Department of the Air Force Award for Meritorious Civilian 
Service.

       National Institutes of Health Director's Award.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        Books:

       None.

        Articles:

       None published.

       ``Barros Appoints Five to Top NIH Posts,'' NIH Record, November 
17, 2006, interviewed for the article as one of the new five senior 
leaders.

        Reports:

       Participated in the development of the Department of Veterans 
Affairs Medical annual budget justification request to Congress during 
the years 1998 through 2001.

       Participated in the development of the Executive Office of the 
President, Office of Management and Budget, annual budget request to 
the Congress from 2001 through 2006 with a primary contribution to the 
Defense Health programs and Veterans programs.

       Participated in the development of the National Institutes of 
Health (NIH) annual budget justification request to Congress during the 
years 2006 through 2009.

       Participated in the development of the annual U.S. House of 
Representatives Appropriations bills, reports, and hearings for the 
Labor, Health, and Human Services (LHHS) subcommittee from 2009 through 
2017 with a primary focus on medical research, public health, and other 
health-related activities.

        Other published materials:

       Squire Patton Boggs client alerts (emailed to clients): 
``Shaping Federal Policy--Appropriations Process''; drafted the client 
alert on March 20, 2017; ``Elephants in the Room: What Is Next for 
Health Policy?''; contributed to the client alert dated April 4, 2017.

       House of Lords visited NIH June 4-6, 2008; Lawton Chiles 
International House published the slides I presented to them on the NIH 
and the budget process.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        No formal speeches delivered during the past 5 years.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        Extensive experience in Federal Government resource and budget 
        aspects from program operations to passing of appropriations 
        and management of policy implementation to support 
        congressional and administrative budget policy.

        More than 30 years of Federal service at all levels of the 
        Federal Government has prepared me for this position.

        Served within the Department of Health and Human Services (HHS) 
        as Senior Executive Service Budget Director of the National 
        Institutes of Health.

        More than 7 years as a senior professional staff member on the 
        House Appropriations Committee with extensive hands-on 
        experience of the HHS accounts.

        Career professional staff member in the Office of Management 
        and Budget and work on health and medical research budget and 
        resources issues in the Department of Veterans Affairs.

        Military enlisted and officer for more than 30 years with the 
        majority of my experience in medical care and health-care 
        leadership positions.

        More detail provided in employment answer number 9 above.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        Only passive activity related to my rental property and serving 
        in the U.S. Air Force Reserve.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        I am not aware of any potential conflicts.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        I am not aware of any potential conflicts.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

        Prior to February 2017, I was a Federal employee for more than 
        30 years. Since February 2017, I have represented legal clients 
        where I primarily provided strategic advice on the Federal 
        Government process. However, in a couple of instances I advised 
        them on how to work with the agency, administration, or 
        Congress to shape policy through requesting appropriations 
        report language, educating congressional members on areas of 
        interests, or suggesting they work with Federal agencies to 
        discuss policy concerns.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        If I encounter any potential conflicts of interest, I will seek 
        the advice of the HHS career ethics officials.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        I am not aware of any complaint, investigation, discipline, or 
        other citation for breach of ethics for unprofessional conduct 
        against me.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        I am not aware of any investigation, arrest, charge, or by any 
        Federal, State, or other law enforcement authority for a 
        violation of any Federal, State, county, or municipal law, 
        regulation, or ordinance, other than a minor traffic offense 
        against me.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        I was part of a 2008 Equal Employment Opportunity Commission 
        (EEOC) complaint.

        Organization/business/entity where it took place: National 
        Institutes of Health.

        Date of claim: On or about 2008.

        My involvement in the claim: I was the supervisor of the 
        complainant's supervisor as I served as the agency Budget 
        Director.

        Nature of allegations/circumstances: To the best of my 
        recollection the complainant resigned during her probationary 
        employment period after being notified of failure to progress 
        with her duties. The complainant filed an EEOC complaint 
        alleging she was discriminated against and subject to a hostile 
        work environment on the bases of race, disability, and 
        reprisal.

        Resolution of the claim: My understanding is the case was 
        dismissed by the EEOC in 2010 without merit, according to the 
        Department of Health and Human Services attorney (General Law 
        Division), Holly Rich. It was EEOC Case No. 531-2010-00086X; 
        Agency Case No. HHS-NIH-0014-2009.

        Divorced on May 29, 1997.

        Full name of former spouse: Last: Woltering; First: Diane; 
        Middle: Carole.

        Date of birth: November 17, 1961 (estimated).

        Place of birth of former spouse: City: Breese; State: IL.

        Country: Former spouse was a United States citizen.

        Date/place married: November 10, 1994; Belleville, IL.

        Divorce date/place: May 29, 1997 (estimated); Belleville, IL.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        I am not aware of ever being convicted of any criminal 
        violation other than a minor traffic offense against me.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
         Questions Submitted for the Record to John J. Bartrum
                 Question Submitted by Hon. John Thune
    Question. Mr. Bartrum, my office recently met with a nursing 
program in South Dakota that has previously accessed Federal 
competitive grants through the Indian Health Service (IHS) aimed at 
growing the nursing workforce serving Native Americans. They raised 
concerns that in the last round of awards, their grant was approved, 
but not awarded due a restriction imposed on the number of grants per 
IHS region.

    While the university recognizes the intent for the grants to be 
competitive and the fact that there are limited resources, the concern 
stems from language in Federal law stating that the Secretary shall 
award one of the nursing grants to the University of North Dakota. It 
was indicated to the nursing program that its application could not be 
funded due to IHS's determination that it would only award funds to one 
university in the Great Plains Area, and University of North Dakota 
must receive one by law.

    It appears that there has been at least one instance in the past 
where multiple universities in the Great Plains Area have been awarded 
funds simultaneously to the University of North Dakota receiving 
funding. Simply put, the nursing program wants to ensure that their 
application can compete moving forward and that they are not 
automatically discounted from consideration due to the set aside in law 
for North Dakota.

    If confirmed, will you commit to working with my office on this 
issue, and more broadly, to improving access to quality health-care 
services for tribal members?

    Answer. If confirmed, I look forward to working with your office on 
this important issue and working toward our shared goal of improving 
access to quality health care for tribal members.

                                 ______
                                 
                  Question Submitted by Hon. Ron Wyden
    Question. The President's Fiscal Year 2019 budget request for the 
Department of Health and Human Services proposes $1,120 billion in 
mandatory funding. This is over 90 percent of the Department's annual 
budget and represents billions of dollars in operating and 
administrative costs for programs that are absolutely essential to the 
American people, including Medicare, Medicaid, CHIP, and TANF. As the 
key advisor to the Secretary on all policy decisions with a budgetary 
or programmatic impact, you will play a central role shaping the future 
of these programs.

    If confirmed, what will be your key considerations when advising 
the Secretary on policy decisions that have a budgetary impact on 
mandatory programs?

    How will you weigh a policy's impact on cost savings, provider 
payments, beneficiary access, and program integrity?

    Where do you draw the line between ``number crunching'' and policy 
development?

    How will you balance the Secretary's and administration's 
priorities with Congress's directive?

    Answer. If confirmed, I would faithfully transmit the budgetary 
impact and analysis provided by each HHS division, based on their 
feedback as subject matter experts. The President's budget is a policy 
document intended to express the administration's position on programs 
that have a budgetary impact, and sets a benchmark for Congress's 
consideration. If confirmed, I will faithfully execute the laws as 
passed by Congress.

                                 ______
                                 
            Follow-up Questions Submitted by Hon. Ron Wyden
    Question. If confirmed, what will be your key considerations when 
advising the Secretary on policy decisions that have a budgetary impact 
on mandatory programs?

    Answer. If confirmed, my key considerations when advising the 
Secretary on policy decisions that have a budgetary impact on mandatory 
programs will be to best support the HHS mission of ensuring the health 
and well-being of all Americans in line with the Secretary's priorities 
and the available resources. It will be my job to solicit Department-
wide input from both career and political staff, as well as seek the 
input of subject matter experts, to ensure that adequate and informed 
impact analysis is appropriately weighed and reflected in any policy 
decision.

    Question. How will you weigh a policy's impact on cost savings, 
provider payments, beneficiary access, and program integrity?

    Answer. The balance of the impact on cost savings, provider 
payments, beneficiary access, and program integrity is based on 
supporting the HHS mission to enhance the health and well-being of all 
Americans within current law and available resources. Just as in 
Congress, consideration of all potential impacts, budgetary or 
otherwise, is critical to the policy making process. As such, a 
policy's impact on cost savings, provider payments, beneficiary access, 
and program integrity would all be important elements to weigh.

    Question. Where do you draw the line between ``number crunching'' 
and policy development?

    Answer. If confirmed, I will work collaboratively with leaders in 
HHS who are the program policy experts to develop a balance of the 
Secretary's priorities and HHS mission in line with congressionally 
passed laws and available resources. My experience in the Office of 
Management and Budget and on the House of Representatives 
Appropriations Committee staff has taught me to understand various 
options are available to address issues which need to be balanced 
against the available resources and priorities.

    For example, when I was on the Appropriations Committee staff 
developing the fiscal year 2015 appropriations bill, the chairman 
desired an approach to better address the opioid epidemic. I worked 
with various policy experts related to the issue to recommend options. 
The options ranged from using existing Centers for Disease Control and 
Prevention (CDC) programs to a more targeted new CDC effort. The 
Chairman, based on the policy experts' research, decided to move 
forward with a targeted CDC effort to build local capacity and support 
state data systems to improve surveillance to best support the health 
and well-being of all Americans. Through my examination, inquiry, and 
data synthesis, I was able to help drive solutions and resources in the 
best possible way on this critically important issue.

    Question. How will you balance the Secretary's and the 
administration's priorities with Congress's directive?

    Answer. Whether in the legislative branch developing budgets or 
crafting appropriations bills, or in the executive branch developing 
budgets, policy choices drive the identification of topline targets and 
inform all the numbers that follow. If confirmed, I would work 
collaboratively with the Department leaders and Congress to address the 
administration's priorities and those instilled upon the Department by 
Congress. The President's budget, for example, is a policy document 
intended to express the administration's position on programs and sets 
a benchmark for Congress's consideration. If confirmed, I will 
faithfully execute the laws as passed by Congress to enhance the health 
and well-being of all Americans.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. Last year, there were 55.5 million total Medicare 
beneficiaries, including nearly 2 million in Michigan.

    Would you advise against any cuts to the Medicare program and 
seniors' benefits, if confirmed?

    Answer. The President has clearly stated his, and the 
administration's commitment to ensuring Medicare beneficiary access to 
care remains a top priority. Any policies seeking to strengthen the 
fiscal solvency and long-term sustainability of the program to ensure 
it existence for future generations to come, must be done so in a 
manner that does not impede current beneficiaries' access to care.

    Question. Despite the President's promise not to cut Medicaid, 
every major health-care proposal that came before Congress last year as 
well as the HHS budget included Medicaid cuts over $1 trillion dollars.

    At ASFR, you are providing guidance on all budgetary aspects, and 
will be involved in advising on the next budget request.

    Do you support block-granting and cutting the Medicaid program?

    Would you recommend that Medicaid expansion be ended?

    Answer. I agree with the administration's repeated call to provide 
States with the flexibility to customize their Medicaid program to fit 
the needs of each State's unique population. While there is no one-
size-fits-all solution, States must be able to customize a program that 
works best for their residents, while ensuring that patients have 
access to high-quality health care.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. As you have previously acknowledged, it takes resources--
including financial resources--to ensure the successful implementation 
of any policy. The successful implementation and day-to-day execution 
of the Affordable Care Act (ACA) is no different. As Assistant 
Secretary for financial Services you will be responsible for estimating 
the resources necessary to carry out the various programs and policies 
under the jurisdiction of HHS.

    If confirmed, will you commit to truthfully estimating the 
resources required to successfully implement and ensure successful 
management and execution of all laws of the land, including the ACA?

    Will you commit to answering questions raised by members of both 
the majority and the minority in Congress in a both truthful and prompt 
manner?

    Answer. Yes, if confirmed, I commit to being responsive to all 
members of Congress in a truthful and prompt manner, and I will 
faithfully execute the laws as passed by Congress.

    Question. In 2015, the Department of Health and Human Services 
announced that it would be investing $110 million from the non-
recurring expenses fund (NEF) in the Centers for Disease Control and 
Prevention's (CDC) National Institute for Occupational Safety and 
Health (NIOSH) center in Cincinnati, Ohio for site selection, 
acquisition, and construction of a new research facility. This project 
is ongoing and construction is expected to start later this year. Last 
year, Senator Portman and I wrote to then Secretary Price to express 
our support for this project and ask for a status update. We were 
pleased when the Department responded that work on a new NIOSH facility 
in Cincinnati remains underway and the Department plans to continue 
prioritizing this project. We have since spoken with Secretary Azar 
about our enthusiasm for seeing this project completed in a timely 
manner.

    If confirmed, will you commit to working with Senator Portman and 
me to ensure this project remains a Department priority, that the funds 
that have been publicly committed to this NIOSH project remain 
dedicated to this project, and that you will work with your team and 
others in the Department to ensure timely completion of this project?

    Answer. Yes, if confirmed, I look forward to working with both your 
office and Senator Portman's office on this project.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. This administration has undertaken a systematic 
dismantling of protections for lesbian, gay, bisexual, and transgender 
(LGBT) Americans and has worked to quietly push programs administered 
by the Department of Health and Human Services away from serving LGBT 
individuals, such as by limiting Federal agency data collection on the 
needs of LGBT youth and older Americans. How will you ensure that 
programs administered by HHS are not hampered from serving the LGBT 
community?

    Answer. If confirmed, I would work to enhance and protect the 
health and well-being of all Americans, including the LGBT community.

    Question. The mission of the Department of Health and Human 
Services is ``to enhance and protect the health and well-being of all 
Americans,'' including by ``fostering advances in . . . public 
health.''

    Do you agree with this mission statement?

    How will you promote health, if confirmed as Assistant Secretary 
for Financial Resources?

    What approaches to promoting public health do you feel are the most 
effective?

    How will you engage with the full range of stakeholders, from both 
the public sector and the private and non-profit sectors, to promote 
public health? Do you see value in seeking input from nongovernmental 
stakeholders, even when opinions may differ?

    Answer. As I stated in my opening testimony before the committee, I 
look forward to serving in a key role that works to make the best use 
of available resources to enhance and protect the health and well-being 
of all Americans. I would seek to faithfully transmit the budgetary 
impact and analysis provided by each HHS division, based on their 
feedback as subject matter experts, which is formed, in part, from the 
input they receive from various nongovernmental stakeholders and 
experts in their field.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
delivered the following opening statement at a Finance Committee 
hearing considering the U.S. Department of Health and Human Services 
(HHS) nominations of John Bartrum to be an Assistant Secretary of 
Health and Human Services and Lynn Johnson to be an Assistant Secretary 
for Family Support.

    Today we will consider the nominations of John Bartrum and Lynn 
Johnson. I would like to extend a warm welcome to each of the nominees 
here today. Congratulations on your nominations and thank you for your 
willingness to serve in these important positions.

    Mr. Bartrum, President Trump nominated you to be Assistant 
Secretary for Financial Resources at the Department of Health and Human 
Services. This is not the first time you have been called upon to serve 
your country. In fact, you have 30 years of military experience as both 
an active duty officer and as a reserve officer. We thank you for your 
service.

    In addition to your substantial military career, you spent many 
years on Capitol Hill as a Senior Professional Staffer to the United 
States House Appropriations Committee. In that capacity, you played a 
key role in funding the Department of Health and Human Services as well 
as many other agencies under its purview. Your experience has given you 
important insights into the costs associated with the policies and 
programs carried out by the Department.

    Prior to your career on Capitol Hill, you served as a part of the 
National Security Division of the Office of Management and Budget in 
the Executive Office of the President. At OMB, you were responsible for 
the budget of the Department of Defense and Veterans Affairs. It is 
obvious from your background that you have a good deal of experience 
crafting and implementing Federal budgets. I'm sure these experiences 
will serve you well in the position for which you have been nominated.

    If confirmed, you will oversee HHS's budget and provide guidance to 
the Secretary on all aspects of financial management. As I'm sure you 
are well aware, Medicare and Medicaid are expanding too quickly. 
According to the Centers for Medicare and Medicaid, national spending 
on mandatory health programs is projected to grow at an average of 5.5 
percent per year between 2017 and 2026 and will reach $5.7 trillion by 
2026.

    This trajectory is unsustainable.

    I have a long history of supporting entitlement reform and believe 
that we need to continue to find ways to curb excessive government 
spending while increasing access to high-quality, affordable care.

    I don't think I need to say this, but I will anyway: we have our 
work cut out for us, Mr. Bartrum.

    On the other hand, Mrs. Johnson, President Trump nominated you to 
be Assistant Secretary for Family Support at the Department of Health 
and Human Services. Currently, you serve as executive director of 
Jefferson County Human Services, where you oversee a number of 
workforce and social services programs, including TANF. Prior to your 
position with Jefferson County Human Services, you ran a consulting 
firm in Colorado that focused on mental health, high-risk youth, and 
child welfare among other things. I'm sure these experiences will serve 
you well in the position for which you have been nominated.

    If confirmed, Mrs. Johnson, you will oversee a wide range of more 
than 60 programs with a budget of more than $53 billion, making it the 
second largest agency in the U.S. Department of Health and Human 
Services. You will oversee major programs such as TANF, child welfare, 
child care, child support, and Head Start--partnering with States and 
communities to help families achieve prosperity and independence.

    You will also be charged with implementing laws passed by Congress 
to aid children and families across the country. Last month, after 
years of hard work on both sides of the aisle, Congress passed--and the 
President signed into law--the Family First Prevention Services Act. 
This law has the potential to improve the lives of tens of thousands of 
children and their families across this country. The opioid epidemic 
has hit families hard, and the number of children entering foster care 
due to parental substance abuse is continuing to climb. Fortunately 
this new law will help address the epidemic by providing more help to 
families to address substance abuse issues.

    Mrs. Johnson, if confirmed, you will be charged with leading the 
agency in implementing this law, and I know members of this committee 
are eager to work closely with you to make sure it is implemented 
quickly, and as intended, so that families will get the help they need.

    I look forward to working with you both, and hope that we can get 
your nominations reported and confirmed in short order so that you can 
get to work. We have a great deal of work ahead of us on these issues. 
And I look forward to working with HHS as we work to achieve our shared 
goals.

                                 ______
                                 
   Prepared Statement of Lynn A. Johnson, Nominated to be Assistant 
 Secretary for Family Support, Department of Health and Human Services
    Thank you, Senators Gardner and Bennet, for supporting me today. It 
is an honor to have you both with me. Thank you, Chairman Hatch, 
Ranking Member Wyden, and distinguished members of the Finance 
Committee. It is a tremendous honor and opportunity to appear before 
you today as the President's nominee to be the Assistant Secretary for 
Family Support.

    Before I continue, I would like to introduce you to my family. My 
husband Lance encouraged me to accept this nomination so I can serve my 
country in the best way I know how. Should I be confirmed, I know that 
he and the rest of my family will also be serving America. My sons Greg 
and Kyle and my youngest daughter Brett are all here today. My mother-
in-law Judy from both Arizona and Iowa and my college roommate Tina, 
who made the trek from Arizona, are here with me. My parents, Don and 
Marilyn from Ohio and Colorado, and my brothers, sister, nieces, 
nephews, aunts, uncles, my staff, and friends are all watching right 
now. Without all of them, I could not have made this journey through my 
career. I am thankful for them.

    My family moved from Ohio to Colorado when I was young. Growing up 
in Colorado, my parents instilled in me the dedication to serve others. 
My Mom was a teacher, and my Dad served in the Army and loved to play 
baseball. They are an example of what is great in America. With great 
pride and humility I want to note many families who have moved 
themselves out of poverty and have taught me so much about dignity, 
respect and the valuable voice for our most vulnerable people are 
watching right now.

    Looking back on my Criminal Justice career, I learned lessons from 
people who made some horrible decisions and suffered the painful 
consequences of rejection by society. Success stories were accompanied 
by failures in our criminal justice, education, mental health, and 
human services systems. Top-heavy bureaucracy coupled with the 
inability of systems to work in harmony let criminal offenders ``slip 
through the cracks,'' allowed the homeless and hungry to continue to 
suffer, and denied battered children the dignity of help they so 
rightfully deserved. I cannot imagine ever saying ``no'' to an 
opportunity to serve my country and to dedicate myself to having an 
impact and to make a positive difference.

    Systems are made to be improved. After leaving criminal justice, my 
fortune led me to work with Governor Bill Owens, known for more action 
and less talk. He championed successful outcomes for vulnerable 
populations and challenged me to further the cause. Here I learned 
policy, politics, and how difficult it was to decrease red tape, rules, 
and regulations. I learned that the American people do not want to wait 
any longer for bureaucracy to plan and plan and plan to make a 
difference. Children, mothers, fathers are hungry now, so we need to 
act now.

    In 2007 I became the Director of Jefferson County Human Services. 
This was my Ph.D. in serving. I had the opportunity to work with others 
in the helping professions from staff to partners to the children and 
families who walk in our doors and to maximize their God-given 
potential. I didn't waste a single moment. I learned the workforce 
systems from the Department of Labor; anti-poverty programs from Head 
Start; child welfare programs, adult programs, and all of the 
eligibility programs from HHS; some of the housing programs from HUD; 
and the SNAP program from the Department of Agriculture. We continually 
worked to improve our outcomes. We set a course for community 
partnerships at the highest levels. We set out to change the culture. 
We created a power of partnership with over 150 faith-based entities 
serving people first, partnered with nonprofits to maximize resources, 
and, most importantly, created the Jeffco Prosperity Partnership (JPP). 
We moved with people from poverty to prosperity. This all was 
accomplished through a whole-family model that has demonstrated great 
success. JPP started with life coaches wrapping services around Head 
Start families to ensure children graduate high school and parents 
achieve self-sufficiency. The highest success is the dignity and 
respect each family learns and earns moving out of government systems, 
becoming productive citizens, and giving back social capital so others 
can reach for the American dream. Because of this, we are ending 
poverty in Jefferson County with a goal to end it throughout America.

    The chance to serve my country as the Assistant Secretary for 
Family support is my next great challenge. The challenge is to reduce 
abuse and neglect, poverty, unemployment, truancy and dropouts in our 
schools, homelessness, human trafficking, and hunger for all of our 
Nation's communities. Based on my journey, I believe we can, and I 
believe I am up to lead the task at hand. I know that ACF is a large 
agency that has huge responsibilities. If we don't act now, fast, 
focused with a definition of success, leaders sitting in these same 
seats years from now will be having these same discussions. By working 
with this esteemed body of government, with the executive branch, State 
and local governments, businesses, non-profit partners, and faith-based 
entities, and most importantly by working and doing with, not for, our 
most vulnerable populations, we can make the difference that we will 
all be proud of. Together we can avoid putting Band-Aids on problems 
and we can eliminate costly root causes. The billions of dollars 
invested in the United States by government and philanthropy in 
communities can be reduced because we can show a return on investment 
that will create a thriving, safe, and healthy society, and one that 
all other countries worldwide will want to emulate. Every day, I will 
work to earn your confidence. I will fight so we can say the American 
people are better off because together we made a difference. I will 
make it my mission to listen and always value dignity and respect for 
all of the people, children, and families we serve.

    If confirmed, I will be responsive to your intent, follow the laws, 
and work closely with you to make good things happen. I hope you 
support me to lead this challenge. I thank you for your consideration 
and look forward to answering any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Lynn Ann Johnson; maiden 
name: Mestnik.

 2.  Position to which nominated: Assistant Secretary for Family 
Support for the Department of Health and Human Services.

 3.  Date of nomination: June 16, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: April 7, 1959, Wiesbaden, Germany.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        I attended the University of Northern Colorado and obtained a 
        bachelor of science major in special education, rehabilitation 
        and related services with a minor in business administration in 
        May 1981. I attended Arizona State University and graduated 
        with a masters in social work in May 1983. I attended the 
        Federal Judicial Center Leadership Institute with a completion 
        certificate in 1997 and attended the Harvard Executive 
        Education at the Kennedy School of Government in August of 
        2013.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Arizona Department of Corrections, Phoenix, AZ, 1982-1987. In 
        1982-1983 I was a policy analyst, a project coordinator, and a 
        legislative assistant. I worked for the policy liaison, Judy 
        Burris. From 1983-1987 I was an Arizona State Parole Officer 
        managing a caseload of up to 100 criminal cases, conducting 
        arrests, searches, and seizures. The parole chief was Jim 
        Armstrong. Bob Altweis and Lee Gaugler directly supervised me.

        From 1987 through 1994, I worked for the United States 
        Probation Office in Arizona and Colorado. From 1987 through 
        1992 I was a U.S. Probation Officer in the District of Arizona, 
        with offices in Phoenix, Tempe, and Mesa, AZ, conducting 
        investigations, making recommendations on the disposition of 
        cases for the court, writing court reports, responding to 
        motions, and managing a caseload of offenders in addition to 
        implementing training for co-workers. In 1992, I did the same 
        work in the District of Colorado, offices located in Denver and 
        Lakewood, CO, and was promoted to mental health specialist from 
        1994 through 1999. This position entailed managing a caseload 
        of offenders needing mental health treatment. I managed a 
        caseload of sex offenders in addition to providing the Federal 
        Judicial Center assistance on nationwide training on the 
        management of sex offenders. In Arizona, the chief was Robert 
        Thomas and in Colorado, the chief was Richard Miklic.

        From 1999 through 2003, I was employed by the State of Colorado 
        working in the Office of Governor Bill Owens starting as a 
        senior policy analyst, becoming the Director for the Governor's 
        Office for Family and Children and the Head Start Collaboration 
        Director. I was promoted to Deputy Director for Policy and 
        Initiatives in 2000, ultimately moving to deputy chief of staff 
        for policy in March 2002 through January 2003. My direct 
        supervisors were Richard O'Donnell and Roy Palmer.

        From January through April of 2003, I was employed by the State 
        of Colorado as chief of staff for Lieutenant Governor Jane E. 
        Norton, directly supervised by her. I was responsible for the 
        direct day-to-day operations of the office.

        In April 2003 through July 2007, I did consulting work as 
        president/owner of Lynn A. Johnson, Inc. I worked on numerous 
        projects dealing with mental health, youth issues, 
        developmental disabilities, and education. Specific projects 
        were done for the National Alliance for the Mentally Ill 
        (NAMI), Rite of Passage (ROP), Developmental Pathways Community 
        Centered Board, CCB Partners, Fund for Colorado's Future, and 
        University of Denver Graduate School of Social Work. I worked 
        out of my home in Lakewood, CO.

        From July 2007 to present, I have been the Executive Director 
        of the Jefferson County Department of Human Services, in 
        Golden, CO. This agency is responsible for Workforce (WIOA), 
        Head Start, Medicaid and other benefit programs, Community 
        Development Block Grants (CDBG), Temporary Assistance to Needy 
        Families (TANF), child support services, child and adult 
        protection, child welfare, adult and aging programs, 
        delinquency services, and pretrial and community corrections. 
        In this position, I manage over 650 employees and a 90+ 
        million-dollar budget. I report to a county board of 
        commissions and am currently supervised by county manager Don 
        Davis.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        None.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        None.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        Children's Ark Child Care Board--parent member.

        Colorado Human Services Directors Association--member.

        Friends for Youth--board member.

        National Association of Public Child Welfare Administration--
        president-elect and vice president.

        American Public Human Services Association--member.

        Colorado Human Trafficking Council--Governor-appointed member.

        .Alpha Phi International Fraternity--member.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       Area coordinator, caucus chair, and county and State delegate 
for the Jefferson County Republican Party.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       Donations to Congressman Mike Coffman (R-CO) $100 or less.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        Jefferson County Hall of Fame--West Chamber of Commerce 2017.

        Local and State outstanding member award--American Public Human 
        Services Association 2016.

        Award of excellence for successful transformation of Human 
        Services and support of substance abuse treatment--Signal 
        Behavioral Health Network 2009.

        Betsey R. Rosenbaum Award for Excellence in Public Child 
        Welfare Administration--National Association of Public Child 
        Welfare Administrators 2011.

        Children's Champion award, The Colorado Association for the 
        Education of Young Children 2001.

        Colorado Child Care Association award, 2000.

        DDRC Friend award, Developmental Disabilities Resource Center 
        2011.

        Francis T. Ishida Award for Excellence in Customer Service, 
        Center for Medicare and Medicaid Services' Denver Regional 
        Council 2010.

        Impact volunteer, Mile High United Way.

        Local government award Planning With Vision for the Strategic 
        Plan for Aging Well in Jefferson County, Denver Regional 
        Council of Governments (DRCOG) 2012.

        Lynn Johnson Day in Jefferson County, Jefferson County Board of 
        County Commissioners proclamation, June 14, 2012.

        Outstanding service and professional commitment--Rite of 
        Passage, Inc.

        Outstanding woman of Jefferson County--The West Chamber 2012.

        Recognized for outstanding service, loyalty, and dedication, 
        the U.S. District Court and the U.S. Probation Department for 
        the District of Colorado 1992-1999.

        Serving our Seniors (SOS) award, Colorado Senior Lobby 2013.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        None.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        American Public Human Services Association--``TED Talk.''

        Human Trafficking PowerPoint--standard speech and training 
        collaborations speech.

        Triad presentation.

        Colorado Human Services Directors Association Integration.

       Human Trafficking.

       NACO Integrated, Generative Services.

        The Jeffco Prosperity Project for the Power of Partnership 
        Conference on Human Trafficking.

        Arvada K-8 Working Together.

        Live Well San Diego presentation on integration.

        The Good News Breakfast--formal speech.

        Metro State University--formal speech.

        ROP slide presentation on integration and juvenile justice.

        Human services standard talking points and PowerPoint.

        Jeffco Thrives PowerPoint on integration and reaching 
        excellence.

        Local Human Service Directors speech.

        Two Gen and the generative approach--Harvard.

        Two Gen and integration to generative thinking Tennessee

        Early childhood and Jeffco Prosperity Project for the TRIAD, 
        early childhood.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have dedicated my life to serving my country by working with 
        the most vulnerable of people from offenders, to abused 
        children, to the homeless, mentally ill, addicted, and beaten. 
        My education and my experience together enable me to serve well 
        in the position I have been nominated to. I have a broad 
        understanding of the multiple Federal systems working to end 
        poverty, abuse, neglect, and other costly issues in society. I 
        understand the need to integrate systems and to decrease waste 
        while increasing positive outcomes with dignity and respect. My 
        approach to systems and to those we serve enables me to be a 
        good steward of the tax dollar while moving families and 
        individuals to a place in society where they are self-
        sufficient, free from abuse, and from neglect. I understand 
        rules, regulations, laws, budgets, and financing. I have good 
        experience with legislation and a broad understanding of the 
        judicial system. All of this together qualifies me to serve in 
        the position to which I have been nominated, Assistant 
        Secretary for Family Support (Administration for Children and 
        Families in Health and Human Services).

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes, I would be honored.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        I owned BlackRock Health Sciences Opportunities Portfolio 
        (SHSAX) in a personal SEP/IRA account. This has been sold.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

        In my role as Executive Director of Human Services, I worked 
        directly with the State Director and the legislature during 
        session as requested, to provide information, education, or 
        guidance on bills impacting the State or local delivery of 
        services. I did not act in the capacity of a lobbyist at any 
        time.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        I will comply with all of the requirements of the Office of 
        Government Ethics concerning potential conflicts of interest. I 
        have sold the BlackRock Health Sciences Opportunities Portfolio 
        (SHSAX) that is in a personal SEP/IRA account.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        Completed.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        I have not been named as a party in any personal litigation. I 
        have been named as a party in litigation in my official 
        capacity as Director of Human Services. Please let me know if 
        you need a full listing of the litigation.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        I would be honored and completely dedicated to the agency I am 
        nominated to. Should I be confirmed, I would look forward to 
        working at the Federal level to continue the efforts I have 
        made to reduce unnecessary costs while at the same time assist 
        individuals and families to be self-sufficient and free from 
        government subsidies.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
         Questions Submitted for the Record to Lynn A. Johnson
                 Question Submitted by Hon. John Thune
    Question. Mrs. Johnson, an area of concern I've heard from some of 
the tribes in South Dakota administering their own child support 
programs is that they currently lack direct access to the Federal 
Parent Locator Service, which helps locate noncustodial parents to 
enforce child support orders. Similarly, tribes cannot utilize the 
Federal offset program, which would allow them to collect past-due 
child support payments from a noncustodial parent's tax refund. If 
confirmed, will you commit to working with my office on finding ways to 
address these concerns and ensure that tribes can successfully enforce 
child support orders?

    Answer. Child support is critical to the healthy growth of children 
and the ability for families to become self-sufficient and move out of 
poverty. If confirmed, I will commit to working with your office to 
find ways to address these concerns.

                                 ______
                                 
              Questions Submitted by Hon. Claire McCaskill
    Question. Mrs. Johnson, of the 273,539 children who entered foster 
care during FY 2016, one-third entered foster care because of parental 
substance abuse. As the opioid epidemic continues to plague families 
across the country, what steps will you take, if confirmed, to ensure 
that the different child welfare systems across the country are 
prepared to properly deal with the growing number of children affected 
by parental substance abuse?

    Answer. Parental substance abuse has impacted many children and 
families throughout our country with the opioid epidemic exacerbating 
the number of children affected by this crisis. Preventative measures, 
access to (successful) treatment opportunities for parents and ongoing 
monitoring is critical to support children in homes where a parent 
struggles with substance abuse. It is also important to strengthen in-
patient programs that keep children and parents together in cases where 
this is possible and in the best interest of the child.

    Successful support networks must be identified in localities to 
provide the best support to a caregiver with an addiction to ensure 
sobriety throughout his or her lifetime. Substance abuse cannot be 
addressed adequately without also looking at self-medicating issues 
around mental health. In addition to treatment, primary prevention to 
address substance abuse prior to addiction is paramount to ensure less 
families suffer the challenges that come with substance abuse. 
Addiction cannot be addressed in a silo and, if confirmed, I look 
forward to working with SAMHSA and CMS, and with our State and local 
partners to identify innovative programs that work for families.

    Question. Mrs. Johnson, do you support collaboration and 
coordination between drug courts and the child welfare system? If yes, 
what are your plans for collaboration and coordination, if confirmed?

    Answer. I fully support collaboration and coordination between drug 
courts and the child welfare system. The courts and the child welfare 
system in Jefferson County Colorado have achieved a successful drug 
court/child welfare integrated program. We are extremely proud of the 
success due to this collaborative effort. Our drug court known as FIT 
Court has been selected as a National Peer Learning Court (PLC). There 
are 450 family drug courts across the country and a total of 8 have 
been selected by Children and Families Futures and OJJDP as Peer 
Learning Courts. FIT Court has been selected to serve as a PLC because 
of our team's commitment to evidence-supported practices, innovative 
strategies to improve outcomes for children and families, and the 
strong foundation of collaboration among the court, child welfare, and 
substance use disorder treatment agencies.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
                              lgbt issues
    Question. The Department of Health and Human Services' (HHS) Street 
Outreach Program, administered by HHS's Administration for Children and 
Families (ACF), supports organizations around the country that work 
with homeless, runaway, and street youth to help them find stable 
housing and services. The program's goal is to prevent the sexual abuse 
or exploitation of young people living on the streets or in unstable 
housing and prepare them for independence. While previous funding 
announcements specifically stated that grantees were required to 
address the unique needs of lesbian, gay, bisexual, transgender, and 
queer (LGBTQ) youth, the 2017 announcement removed that requirement as 
well as all mentions of LGBTQ youth. Furthermore, in previous years, 
applicants were required to submit an ``LGBTQ Accessibility Policy'' 
assurance, which Stated that the needs of LGBTQ individuals would be 
taken into consideration and that the applicant would establish 
policies prohibiting harassment. The 2017 funding announcement did not 
require applicants to submit this assurance.

    HHS's decision to eliminate LGBTQ youth as a focus of the program 
ran counter to its own findings and recommendations and could have 
serious repercussions on the lives of at-risk LGBTQ youth. According to 
a 2016 study released by HHS, while 3 to 5 percent of youth in this 
country self-identify as LGBT, one-third of youth served by the Street 
Outreach Program reported being lesbian, gay, or bisexual, and HHS's 
own study also found that LGBT youth served by the program ``were 
significantly more likely to have experienced victimization on the 
streets (including being beaten up, robbed, sexually assaulted or 
raped, threatened with a weapon, or assaulted with a weapon) than their 
heterosexual counterparts.'' HHS also found that LGBT youth supported 
by the program faced barriers accessing services, including the lack of 
LGBT-friendly policies and staff. Because of these barriers, HHS 
concluded that programs and services funded by the Street Outreach 
Program would need to be especially sensitive to LGBT youth and that 
additional information about the needs of LGBT youth, as well as more 
effort, was needed to better serve these individuals. HHS's decision to 
remove requirements to address the unique needs of LGBTQ youth leave 
the Department in contradiction of its own recommendations.

    If you are confirmed, how will you ensure that all ACF programs, 
including the Street Outreach Program, meet the unique needs of the 
LGBTQ community?

    Answer. Should I be confirmed, I will commit that all ACF programs 
will treat all children and youth fairly and with compassion and 
respect for their human dignity. Should I have the opportunity to lead 
ACF, I am committed to following Congress's lead in seeing that the 
agency supports the well-being of all the children and youth its 
programs touch, and promotes positive youth development that includes 
quality care and nurturing for success as healthy adults.
                              cooperation
    Question. If you are confirmed, do you commit to providing 
thorough, complete, and timely responses to requests for information 
from all members of Congress, including requests from members in the 
minority?

    Answer. Yes, I will commit to working with and responding in a 
thorough, complete, and timely manner to all members of Congress.
                       impact of childhood trauma
    Question. Ongoing research, including studies funded by the Centers 
for Disease Control and Prevention, have demonstrated the broad 
prevalence of Adverse Childhood Experiences (ACEs) and the ways in 
which these experiences can lead to lifelong health consequences. There 
is also what researchers call a ``dose-response relationship,'' meaning 
that as children experience more traumatic events, the negative impacts 
get worse. Children who are continuously exposed to trauma can 
experience developmental and behavioral problems, which may not be 
recognized as a symptom of their ongoing or residual trauma. These are 
the children that most need our help.

    The trauma can come from many sources these days: community or 
school violence, abuse or neglect, witnessing domestic violence in the 
home, exposure to parental substance abuse, and even being removed from 
one's home. In some ways, we have started to adapt to this 
understanding of trauma, such as through the work this committee has 
done with the Family first Prevention Services Act to move our child 
welfare system towards a prevention-focused system that works to 
stabilize and support vulnerable families where possible, and only 
removing children from their homes as a last resort. However, we must 
ensure that we continue to inform our work with the latest research on 
trauma and the impact of trauma on children, so that we can ensure we 
are providing the best resources and support for these vulnerable 
children.

    If confirmed, how will you ensure that the Administration for 
Children and Families promotes trauma-informed and trauma-sensitive 
systems for children?

    Answer. Should I be confirmed, the use of trauma-informed and 
trauma-sensitive systems should continue to be identified as a best 
practice. All individuals who work with children/youth and parents in 
our systems should be trained on the identification and care for 
individuals with trauma. This would also include the parents who were 
at one time, the child with a high ACE score. Through Jefferson 
County's early childhood program, we work with mental health and 
education systems to identify areas of trauma. Our Head Start has 
created an innovative therapeutic classroom for the children needing 
low stimulus and highly trauma-informed teachers. We have also trained 
all staff who work with children and youth. In addition, we provide 
trauma informed therapy to any staff who have witnessed horrific 
situations through their day to day work.

    It would be helpful to work with the institutions of higher 
learning to ensure this training is also provided in degree programs.

    Question. How will you ensure that children who must be removed 
from their caregivers and placed in foster care are not re-traumatized 
by the child welfare system?

    Answer. This is a difficult question and one practitioners have 
been asking for many years. The Family first Prevention Services Act is 
a good first step towards reducing trauma of change and lack of 
stability. There needs to be however, coordinated efforts from multiple 
systems from human services, health, mental health, education, and 
others to ensure children are not re-traumatized. Primary prevention 
efforts to strengthen marriage and families, enhanced supports for 
schools to identify and care for children, enriched parenthood 
programs, and further support for foster parents will all assist 
towards the desired goal. The effort to integrate and collaborate 
within government and within a community will be critical to these 
efforts.

    Question. How can you ensure that the child welfare system and 
child welfare workers are supported so that children who present with 
challenging behaviors can be identified, given appropriate support, and 
achieve permanency in their placement through reunification, kinship 
care, or adoption?

    Answer. The child welfare system and child welfare workers do not 
operate in a silo. Identification of the multi-disciplinary teams 
necessary to adequately care for children with challenging behaviors 
assists the child welfare worker and the system move towards a 
successful outcome for children and families. It is critical that the 
system have standards for best practice, available resources, 
appropriate case load numbers, and clear expectations for professional 
behavior. The ability to legally share data with other helping systems 
assists families as well as workers. In my current position, we work 
hard to ensure that our child welfare workers are adequately paid, that 
we are an ``Employer of Choice'' for the workers, and that they are 
best trained and supported during difficult cases. We provide stress 
relief through therapy and other activities and stress a healthy work/
life balance. Our staff are the most valuable resource to ensure 
children and families are safe and healthy. They must have the tools 
and resources to do the job.
                             child welfare
    Question. We have a responsibility to protect children in foster 
care, because we--society--have accepted the responsibility to care for 
them and ensure their well-being until they can be reunited with their 
family or found another permanent home.

    I have heard multiple reports that the child welfare system is 
being particularly strained by the opioid epidemic, and the number of 
children needing services due to parents with substance use disorders. 
If confirmed, how do you plan to support caregivers and children 
impacted by the opioid epidemic who intersect with the child welfare 
system?

    Answer. Parental substance abuse has impacted many children and 
families throughout our country with the opioid epidemic exacerbating 
the number of children affected by this crisis. Preventative measures, 
access to (successful) treatment opportunities for parents, and ongoing 
monitoring are critical to support children in homes where a parent 
struggles with substance abuse. It is also important to strengthen in-
patient programs that keep children and parents together in cases where 
this is possible and in the best interest of the child.

    Successful support networks must be identified in localities to 
provide the best support to a caregiver with an addiction to ensure 
sobriety throughout his or her lifetime. Substance abuse cannot be 
addressed adequately without also looking at the self-medicating issues 
around mental health. In addition to treatment, primary prevention to 
address substance abuse prior to addiction is paramount to ensure less 
families suffer the challenges that come with substance abuse. 
Addiction cannot be addressed in a silo and, if confirmed, I look 
forward to working with SAMHSA and CMS, and with our State and local 
partners to identify innovative programs that work for families.

    Question. How do you plan to enhance interstate collaboration and 
sharing of child welfare best practices?

    Answer. Should I be confirmed, I would encourage continued 
collaboration with our non-profit partners (NGOs) such as the Alliance 
for Strong Families and Communities, American Public Human Services 
Association and their affiliate National Association for Public Child 
Welfare Agencies, Casey Family Programs, Annie E. Casey, the Child 
Welfare League, State and local partners, and so many more to continue 
an integrated approach to enhance best practices and share in peer 
monitoring and reviews between child welfare departments. The multitude 
of organizations who deeply care about our families and children will 
be essential to the success of our child welfare practices.

    Question. How do you plan to increase access to mental health and 
behavioral health services for children in foster care?

    Answer. Should I be confirmed, I will coordinate closely with the 
offices in ACF as well as with our partner agencies CMS and SAMHSA on 
the issue of mental health and behavioral health services. Enhancing 
the care and access in mental and behavioral health is critical for the 
success of our families and children.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
             interpretation and enforcement of federal law
    Question. Mrs. Johnson, if confirmed, there is a Federal law you 
will be responsible for enforcing that restricts the use of title IV-E 
funds to support the placement of foster children in facilities used 
primarily for juvenile detention. Dozens of groups advocating for 
children say you shouldn't place foster children in detention 
facilities. And in my view, Federal law is clear. Foster care funds 
cannot be used for this purpose.

    How would you interpret the Federal restriction on the placement of 
foster youth in facilities that operate primarily for juvenile 
detention? Please be specific in describing your views on the types of 
characteristics and caseload makeup that should determine whether a 
facility operates in such a way.

    Answer. The Federal restriction on the placement of foster youth in 
facilities that operate primarily for juvenile detention is clear. 
States determine and fund detention in ways that are different than a 
Residential Child Care Facility. The licensing to be a Residential 
Child Care Facility is also thorough and clear. I would follow the law 
regarding the use of title IV-E funding and, should there be areas of 
concern, would work with Congress to clarify the placements, purpose, 
and funding.

    It is clear that using title IV-E funds to support the placement of 
foster children in residential child care facilities is allowable. What 
could use more clarity is the response to behaviors of our youth who 
may have been abused and/or neglected but who are acting out as teens, 
sometimes in ways that would appear delinquent. If confirmed, it would 
be my goal that these youth, if possible not end up in a high-end 
system of detention. It is critical that all children and youth in our 
systems be treated so that they can be cared for in a normalized manner 
to become successful and healthy adults. This should also include the 
priority of the least restrictive environment, and stable educational 
efforts.
                     bipartisan foster care report
    Question. Mrs. Johnson, Chairman Hatch's oversight and human 
services policy staff spent 2\1/2\ years with my team investigating the 
expanding role of privatized foster care services in many States. You 
had a productive conversation with the bipartisan committee staff about 
the report's findings during your due diligence meetings. Included in 
the report were policy recommendations for the States and Tribes, the 
Department of Health and Human Services (HHS) and for Congress to 
consider. Among the recommendations for HHS, establishing a common 
definition for therapeutic foster care (TFC), aiding States to 
accurately collect provider-specific outcomes data (consistent with 
AFCARS, NCANDS, and the CFSRs), and establishing maximum caseload 
guidelines were included. As part of the committee's investigation, 
staff repeatedly found instances where States lacked definitional 
consistency and simply had no feasible way to collect specific data 
metrics requested by the committee (and required by Federal law).

    Please identify which HHS-specific policy recommendations outlined 
in the report you would consider acting on if confirmed to lead the 
Administration for Children and Families (ACF) and which you would not 
and explain why.

    Answer. The recommendations provided for States and Tribes, 
Department of Health and Human Services, and Congress are thorough and 
necessary. Should I be confirmed, rather than chose a few 
recommendations, I would want to prioritize the recommendations and 
evaluate the impact of change. The level of oversight for all 
placements should be reviewed and issues of oversight identified. The 
support for enhanced oversight of foster families to ensure robust 
background checks would require the child welfare system access to 
criminal investigation data bases. This access would also not only 
ensure timely placement, it also would reduce multiple placements due 
to not having to wait for the background information. I would take into 
consideration all recommendations after receiving evaluative results, 
would proceed with prioritization and take steps to implement such 
policies.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. One of the concerns with programs like Temporary 
Assistance for Needy Families (TANF) is that many families who could 
benefit from the program have been excluded due to restrictive 
definitions of eligibility. The President has proposed deep cuts to 
TANF in addition to promoting work requirements in Medicaid and cuts to 
nutrition programs.

    Do you support cuts to TANF?

    Can a program be deemed successful if many individuals continue to 
experience hardship but are unable to access assistance?

    Following up on that question, what plans do you have to help 
individuals who fall in the middle ground between eligibility for anti-
poverty programs and true financial stability?

    What plans do you have to ensure people are not falling off an 
assistance cliff as they work toward financial security?

    Answer. If confirmed, I look forward to working with leaders of ACF 
and the Office of Management and Budget to build upon what has been 
learned over the years and to ensure the TANF program is successful in 
reducing the number of individuals who are in poverty and in need of 
such services as well as to ensure that funds are used in the most 
effective manner.

    In Jefferson County, we started what is known as the Jeffco 
Prosperity Project. This effort wraps around individuals who need 
services to assist them in moving from generational poverty to success. 
The families and individuals in the project provide the insight and 
guidance on barriers and what should change in government systems. Non-
profit organizations, businesses, faith-based entities, local 
communities, and the government departments all participate in 
neutralizing the issues around eligibility and especially the cliff 
effect. These efforts are done in a whole family/multi-generation model 
to ensure success for parents and break the cycle of poverty for the 
children. Employment, education, training, child care assistance, 
substance abuse treatment, physical, oral, and mental health care, 
housing, financial assistance, transportation, food, and much more is 
needed to move from abject poverty to self-sufficiency. Should I be 
confirmed, I would work with Congress to ensure that TANF assists 
individuals to successfully move towards true financial stability, out 
of poverty with dignity and with respect.

    Question. As part of the Bipartisan Budget Act of 2018, Congress 
passed the Family First Prevention Services Act. Can you commit to 
ensuring Family First will be fully implemented in the manner intended 
by its bipartisan supporters in Congress?

    Answer. Yes, should I be confirmed, I will commit to ensuring the 
Family First Prevention Services Act is fully implemented in the manner 
intended by its bipartisan supporters in Congress.

    Question. Will you also commit to providing this committee updates 
on the implementation process?

    Answer. Yes, I will commit to providing updates on the 
implementation process of the FFPSA.

    Question. The opioid epidemic has taken a toll on the country in 
many ways, and one of the most devastating has been the impact on 
children. You've mentioned previously working to break down silos--what 
opportunities do you see to coordinate amongst the various Departments 
and with States to improve outcomes for children caught up in the 
opioid epidemic?

    Answer. Most of our systems, health, mental health, education, 
substance abuse, housing, human services, judicial, and others can all 
have an impact on primary prevention as well as identification of 
issues before they become a crisis. No one system can solely handle the 
opioid epidemic or other issues by itself. Should I be confirmed, I 
would be excited about the opportunity to work with Federal agencies, 
States and local entities, HHS and ACF departments. Collaboration and 
integration to move toward common goals, reduce duplication of efforts 
and prioritize person centered, family serving efforts could promote 
and enhance true outcomes for all people.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. Funding for early childhood education is one of the best 
Federal investments we can make, and I am a strong supporter of Head 
Start and Early Head Start.

    Can you describe any previous experience overseeing or working with 
Head Start grantees?

    Answer. I was the Head Start State Collaboration Director when I 
worked for Governor Bill Owens. I currently manage a Head Start in 
Jefferson County. Head Start is the center of all our poverty 
initiatives and the lead on the Jeffco Prosperity Project. In this 
project we are currently working with Head Start families until their 
children graduate from High School. At the same time, we work with the 
family to reach full self-sufficiency.

    Question. What changes would you recommend at the Federal level, if 
any? Would you recommend increased Federal investment in the program?

    Answer. Head Start is an anti-poverty initiative, not just an early 
learning initiative. Should I be confirmed, I would like to look at the 
funding for both Early Head Start and Head Start before recommending 
additional funding. I would also like to look at the standards and 
guidelines to ensure we are not placing unnecessary burdens on the 
staff. The care of the family and children is of utmost importance.

    Question. I was proud to work with the HHS Administration for 
Children and Families to expand Head Start services in Flint in 
response to the water crisis.

    The comprehensive services that Head Start and Early Head Start 
provide, including developmental screenings, referral to health-care 
services, and family services are particularly important in helping 
children overcome lead exposure.

    Can you elaborate on the role the agencies you would be overseeing 
should play in responding to a public health crisis like the one in 
flint?

    Answer. Should I be confirmed, the people serving agencies I would 
oversee could play a significant role in responding to an issue such as 
the one in flint. Cooperation and coordination with other agencies, 
providing information and services to families and children can be very 
helpful. Guidance and assistance to the community, as requested by a 
community would be a priority.

    Question. Do you have experience working with programs funded 
through the SSBG?

    Answer. Yes, I have experience working with programs funded through 
the SSBG.

    Question. The FY 2019 HHS Budget eliminates funding for SSBG, which 
would leave many States, including Michigan, with tough choices on 
where to cut services.

    In Michigan, the SSBG is administered by the Michigan Department of 
Health and Human Services (MDHHS) and funds the following programs: 
children's foster care, adult protective services, runaway and homeless 
youth services, domestic and sexual violence prevention and treatment, 
and multicultural services.

    What do you believe is the role of the SSBG, and what changes would 
you recommend?

    Answer. In my current role, SSBG has been used to provide many 
innovative senior services. Should I be confirmed, I would need to 
review SSBG to provide recommended changes.

    Question. Do you support eliminating the SSBG?

    Answer. As a nominee I have not been involved with the policy 
decision-making process for the development of the President's budget, 
therefore I cannot speak to the policy rationale.

    Question. The Community Services Block Grant (CSBG) is another 
vital program States use to help lessen poverty and address the needs 
of low-income individuals.

    Michigan's Federal CSBG allocation is about $23 million per year, 
and the State uses the money to help families achieve self-sufficiency, 
promote financial wellness, and find meaningful employment.

    In Michigan, the CSBG has eliminated nearly 556,640 poverty 
conditions, helped service more than 1.9 million volunteer hours, and 
served 182,000 people, 50,000 being children. Unfortunately, this 
program is zeroed out in the administration's proposed budget.

    Do you support funding the CSBG? Given your substantial experience 
in State government, how would you expect States to respond to the 
elimination of the CSBG?

    Answer. In my current role, CSBG has been used to assist with 
issues impacting homelessness and poverty. However, as a nominee I have 
not been involved with the policy decision-making process for the 
development of the President's budget, therefore I cannot speak to the 
policy rationale.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    The committee meets this morning to discuss the nomination of two 
individuals to serve at the Department of Health and Human Services, 
Mr. John Bartrum, nominated to the role of Assistant Secretary for 
Financial Resources; and Mrs. Lynn Johnson, nominated to the role of 
Assistant Secretary for Family Support.

    Since child welfare would be under Mrs. Johnson's purview at HHS, I 
want to start my remarks with some major concerns I have over the Trump 
administration blocking key rules meant to help foster kids.

    Everybody wants foster kids to be safe and well cared for. In order 
to evaluate whether our foster care programs are succeeding at 
protecting our most vulnerable youth and giving them a chance to get 
ahead, the Federal Government needs key information from States, which 
run each individual program.

    For example, if you want to do a better job of keeping foster kids 
out of the world of sex trafficking, you need information about how 
widespread a problem trafficking is today, who it's victimizing, and so 
on.

    Over 3 years ago, Congress passed a bipartisan law to fight 
trafficking, and HHS finally got underway revamping its out-of-date 
foster care reporting requirements, including reporting on sex 
trafficking. In fact, the last time HHS updated any of these 
requirements was in 1993. Those updates were supposed to be getting up 
and running right about now. But just in the last few days, the Trump 
administration made the baffling decision to step in and block the 
Administration for Children and Families from moving forward with 
implementation.

    Now, I've warned the Trump administration against interfering with 
this process. By torpedoing these rules, the Trump administration is 
standing in the way of helping some of the most vulnerable kids in the 
country. But they've got their deregulation blinders on, and they 
decided not to listen to any warnings about how this action could hurt 
kids.

    If confirmed, Mrs. Johnson would be in charge of these decisions, 
so I plan to discuss this further with her today. But I want to make 
one thing clear: I am not going to let this go. This committee has put 
in a lot of bipartisan work on child welfare, including very recently 
passing the biggest improvements to the system in decades. I want to be 
able to continue this type of bipartisan work, including with the 
administration.

    I've also got serious concerns about the fact that Mrs. Johnson has 
supported legislation to allow Colorado to send foster kids to juvenile 
detention facilities. While this may be a common practice in Colorado, 
and somewhat similar approaches may be taken in other States, it's 
contrary to Federal law as I read it. If the rules on this need 
updating, policy makers ought to make that happen. But this is an area 
of the law that Ms. Johnson will be in charge of interpreting and 
enforcing if she is confirmed. I look forward to hearing from her 
directly about this issues in question.

    With that, I'll turn to Mr. Bartrum's nomination to be the HHS 
Assistant Secretary for Financial Resources. This is a big job that has 
a lot of influence over how HHS spends taxpayer dollars.

    To say the person in this role is just a ``numbers guy'' is a 
serious understatement. When you've got major decisions affecting the 
spending of Medicare, Medicaid, the Children's Health program, and more 
coming across your desk, you've got a lot of influence over policy. 
That's particularly relevant in the Trump administration, which takes a 
slash-and-burn approach to health-care budgeting no matter how many 
millions of Americans it stands to harm.

    Mr. Bartrum has a long career as a public servant, and his 
qualifications are strong. But these bigger questions dealing with 
health-care budgeting are what I'm hoping to discuss with him today.

    I want to thank both nominees for being willing to serve and 
appearing before the committee today.

                                 ______
                                 

                             Communication

                              ----------                              


           American Public Human Services Association (APHSA)

                 1133 Nineteenth Street, NW, Suite 400

                          Washington, DC 20036

                          Tel: (202) 682-0100

                          Fax: (202) 204-0071

                             www.aphsa.org

March 20, 2018

The Honorable Orrin G. Hatch        The Honorable Ron Wyden
Chairman                            Ranking Member
Committee on Finance                Committee on Finance
U.S. Senate                         U.S. Senate
219 Dirksen Senate Office Building  219 Dirksen Senate Office Building
Washington, DC 20510                Washington, DC 20510

Dear Chairman Hatch and Ranking Member Wyden:

The American Public Human Services Association (APHSA) is a bipartisan, 
nonprofit membership organization representing state and local health 
and human service agencies through their top-level leadership. Through 
our member network and three national Collaborative Centers, APHSA 
seeks to influence modern policies and practices that support the 
health and well-being of all children and families and that lead to 
stronger communities.

On behalf of APHSA, it is my pleasure to recommend Lynn A. Johnson for 
the Assistant Secretary for Family Support appointment with the U.S. 
Department of Health and Human Services.

Mrs. Johnson's expertise and wisdom in the field of human services, 
drawn from her work with three administrations of Governors in Colorado 
and national leadership positions, is well known. Mrs. Johnson has 
served as a leader in APHSA's Local Council and the National 
Association of Public Child Welfare Administrators. Mrs. Johnson has 
strong connections to state and local health and human services leaders 
across the country and is perfectly positioned to engage these 
stakeholders in developing new solutions to address the changing needs 
of children, youth, and families.

Mrs. Johnson is a renowned visionary and innovator, implementing new 
program models that serve families. She has a proven record of 
developing cross-cutting programs that focus simultaneously on the 
needs of parents and children to ensure the whole family's success. We 
trust that she will use this opportunity to identify solutions in 
communities across the country and address the administrative burdens, 
unnecessary rules and regulations that get in the way of success for 
families.

Mrs. Johnson works with sincere motivation to serve communities and 
citizens. Her dependability and drive are character traits that cannot 
be taught and are crucial to any leadership position. She continually 
demonstrates dedication to going above and beyond and exhibits her 
contributions to change lives for the better. Not only does she take 
initiative to learn the regulations and intricacies of human services 
with phenomenal expertise, she also takes the time to learn related 
systems and understand how systems can work together to achieve 
efficient and effective solutions.

We urge you to quickly confirm Lynn A. Johnson as the Assistant 
Secretary for Family Support appointment with the U.S. Department of 
Health and Human Services. We have full confidence in Mrs. Johnson's 
ability to support state and local human services leaders and develop 
programs and systems that will make a difference in the lives of 
children and families.

Sincerely,

Tracy Wareing Evans
President and CEO

                                   


</pre></body></html>
